IN THE
UNITED STATES SUPREME COURT

CHRISTOPHER BRIAN COPE
Petitioner,
versus

DARREL VANNOY, Vterden
Louisiana State Penitentiary
Respondent

APPENDIX

A 1

i

v

i

v- >-•

.V.

I

r

r

t

:.j; *f

1

::?• tt
'.

r.&b*v.

••■*

“'t 'V
v » '

• f !jf?. -»<•

f/b.
j

4

i:i\' ■ m. ’.r V-1.

y >■ #"Tr

’

rvK

/i

■

/

•.

i/iijj‘i

*\

i

!

i

*

I

!
!
i

s

;

\

APPENDIX “A”
i

i

J

/
<

I

I

i

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

June 01, 2021
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW:
No. 20-30378

Cope v. Vannoy
USDC No. 5:18-CV-1445

Enclosed is an order entered in this case.

Sincerely,
LYLE W. CAYCE, Clerk

By:
Dantreli L.Johnson,Deputy Clerk
504-310-7689

Mr. Christopher Cope
Ms. Suzanne Morelock Williams

Case: 20-30378

^pument: 00515881558

Page: 1

£ite Filed: 06/01/2021

®mteb States Court of appeals!
for tfje Jftftfj Circuit
United States Court of Appeals
Fifth Circuit

FILED

No. 20-30378

June 1,2021
Lyle W. Cayce
Clerk

Christopher Cope

Petitioner—Appellant,
versus
Darrel Vannoy, Warden, Louisiana State Penitentiary,
Respondent—Appellee.

Appeal from the United States District Court
for the Western District of Louisiana
USDC No. 5:18-CV-1445

Before Jones, Costa, and Wilson, Circuit Judges,
Per Curiam:
Christopher Cope, Louisiana prisoner # 604579, seeks a certificate of
appealability (COA) to appeal the district court’s denial of his 28 U.S.C.
§ 2254 application challenging his conviction for first-degree murder. Cope
contends that his trial counsel was ineffective for conceding Cope’s guilt at
trial. Cope avers that he objected to his counsel’s strategy and that counsel’s
error was structural under McCoy v. Louisiana, 138 S. Ct. 1500 (2018). He
additionally argues that counsel’s strategy constructively deprived him of his
right to counsel under United States v. Cronic, 466 U.S. 648 (1984). He also

:

Case: 20-30378

^cument: 00515881558

Page: 2 £ite Filed: 06/01/2021

No. 20-30378

contends that the district court abused its discretion in denying his § 2254
application without holding an evidentiary hearing.
A COA may issue only if the applicant makes “a substantial showing
of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); see Miller-El
v. Cockrell, 537 U.S. 322, 336 (2003). Where the district court denies relief
on the merits, an applicant must show “that reasonable jurists would find the
district court’s assessment of the constitutional claims debatable or wrong.”
Slack v. McDaniel, 529 U.S. 473,484 (2000). Cope fails to meet the requisite
standard.
Cope does not brief any challenge to the district court’s dismissal of
his claims that (i) the trial court erred in denying his motion to suppress and
motion to change venue; (ii) he was denied his right to present evidence that
the victim’s wounds were not survivable; and (iii) he was denied his right to
testify and his counsel was ineffective for refusing to allow him to testify. He
has abandoned any such challenges. See Hughes v. Johnson, 191 F.3d 607,613
(5th Cir. 1999). Furthermore, because he raises his claim that he instructed
his counsel to urge an insanity defense for the first time in his COA motion,
we do not consider it. See Black v. Davisy 902 F.3d 541,545 (5th Cir. 2018).
Cope’s motion for a COA is DENIED. As Cope fails to make the
required showing for a COA on his constitutional claims, we do not reach
whether the district court erred by denying an evidentiary hearing. See
, United States v. Davis, 971 F.3d 524, 534-35 (5th Cir. 2020), petition for cert,
filed (U.S. Mar. 18, 2021) (No. 20-7553).

2

!

■.

t

i

i

i

t

i
?

'

APPENDIX “B”

\

i
i

I

f

:!

■i

https://nextcorre^pal.westlaw.com/Document/I29fe0d70a3f211...

Cope v. Vannoy | WestlawNext

WESTLAW
Cope v. Vannoy
United States District Court, W.D. Louisiana, Shreveport Division.

May 28,2020

Slip Copy

2020 WL 2803006 (Approx. 1 page)

2020 WL 2803006

Only the Westlaw citation is currently available.
United States District Court, W.D. Louisiana,
Shreveport Division.

Christopher COPE, Petitioner
v.
Darrel VANNOY, Respondent
CIVIL ACTION NO. 5:i8-CV-i445-P
Signed 05/28/2020

Attorneys and Law Firms
Christopher Cope, Angola, LA, pro se.
Suzanne M. Williams, DA's Office, Shreveport, LA, for Respondent.
JUDGMENT
ELIZABETH E. FOOTE, UNITED STATES DISTRICT JUDGE
*1 For the reasons stated in the Report and Recommendation of the Magistrate Judge
previously filed herein (ECF No. 16), and after a de novo review of the record including the
objection filed by Petitioner (ECF No. 17), and having determined that the findings and
recommendation are correct under the applicable law;
IT IS ORDERED that the Petition for Writ of Habeas Corpus under 28 U.S.C. § 2254 (ECF
No. 1) is hereby DENIED and DISMISSED with prejudice.
Rule 11 of the Rules Governing Section 2254 Proceedings for the U.S. District Courts
requires the district court to issue or deny a certificate of appealability when it enters a final
order adverse to the applicant. The court, after considering the record in this case and the
standard set forth in 28 U.S.C. Section 2253, denies a certificate of appealability. Jurists of
reason would not find it debatable whether the petition states a valid claim of the denial of a
constitutional right and whether this court was correct in its procedural ruling. See Slack v.
McDaniel. 120 S.Ct. 1595, 1604 (2000).
THUS DONE AND SIGNED at Shreveport, Louisiana, this 28th day of May, 2020.
All Citations
Slip Copy, 2020 WL 2803006

End of

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Document

WestlawNext. © 2021 Thomson Reuters

1 Of 1

Thomson Reuters is'koi'providing legal advice

7/27/21, 8:44 AM

Cope v. Vannoy | WestlawNext

https://nextcorre(^p^al. westlaw.com/Docurnent/Iae449e30a42 111...

WESTLAW
Cope v. Vannoy
United States District Court, W.D. Louisiana, Shreveport Division.

December 16, 2019

SlipCopy

2019 WL 8918835 (Approx. 15pagss)

2019 WL 8918835
Only the Westlaw citation is currently available.
United States District Court, W.D. Louisiana,
Shreveport Division.
Christopher COPE, Petitioner
v.

Darrel VANNOY, Respondent
CIVIL ACTION NO. 5:i8-CV-1445-P
Signed 12/16/2019
Attorneys and Law Firms
Christopher Cope, Angola, LA, pro se.
Suzanne M. Williams, DA's Office, Shreveport, LA, for Respondent.
REPORT AND RECOMMENDATION
JOSEPH H.L. PEREZ-MONTES, UNITED STATES MAGISTRATE JUDGE
*1 Before the Court is a Petition for Writ of Habeas Corpus under 28 U.S.C. § 2254 filed by
pro se Petitioner Christopher Cope (“Cope") (#604759). Cope is an inmate in the custody of
the Louisiana Department of Corrections, incarcerated at the Louisiana State Penitentiary
(“LSP") in Angola, Louisiana. Cope challenges his first-degree murder conviction in the First
Judicial District Court, Caddo Parish.
Because Cope's claims are procedurally defaulted or without merit, his Petition (Doc. 1)
should be DENIED and DISMISSED WITH PREJUDICE.
I. Background
According to the Louisiana Second Circuit Court of Appeal:
While on duty in the early morning hours of October 24, 2010, Shreveport Police Sergeant
Timothy Prunty made a routine stop at a west Shreveport convenience store to check on
the employees who worked the night shift. While there, he spoke with his friend and shift
clerk, Carey Sonnier. At approximately 3:24 a.m., Sergeant Prunty and Sonnier stood
outside the store talking. Sonnier leaned on a grey pole located in front of Sergeant
Prunty's vehicle, and Sergeant Prunty leaned on the hood of his car. Shortly thereafter,
the two saw the approach of a red Camaro with very loud exhaust pipes. The driver pulled
into the parking lot and stopped three spaces to the left (west) and slightly behind
Sergeant Prunty's car. Thinking she had a customer, Sonnier moved to go back into the
store. As she did so, Sonnier heard several popping sounds, saw the flame from a gun
and felt Sergeant Prunty shove her as he told her to run. Sonnier ran behind a dumpster
and hid behind a fence. She saw the shooter spread his feet and hold the handgun with
both hands for stability. Sonnier thought that the shooter was shooting at her as well as
Sergeant Prunty. An eyewitness who saw the events from an apartment across the street
corroborated Sonnier's information about the car and the shooter.
Sergeant Prunty returned fire, shattering the glass T-top of the vehicle. The evidence
showed that the driver fired 14 rounds from a .40 caliber Smith and Wesson gun and
Sergeant Prunty fired 11 times from his Glock .22 police-issued pistol.
From behind the fence Sonnier saw the driver pull away slowly and calmly. She ran back
to the front of the building and saw a police car driven by Corpora! Naomi Johnson
approaching. Johnson was in the area when she heard gunshots and dispatched a shotsfired call. She traveled in the direction of the shots and noticed Sonnier flagging her down.
Sonnier directed Johnson to Sergeant Prunty; she noticed blood around his leg area.
Johnson made the call for help at approximately 3:33 a.m. From information given to her
by Sonnier, Johnson was able to give a description of the driver and his vehicle as well as
information that he was traveling west from the convenience store.

1 of 15

7/27/21,8:46 AM

Cope v. Vannoy | WestlawNext

https://nextcorre(^^al.wes tlaw.com/Document/Iae449e30a42111...

In the meantime, Shreveport Police Officer Lacey Durham who was trained as an
emergency medical technician, overheard Johnson's call and traveled to the scene at
approximately 3:37 a.m. She recognized Sergeant Prunty and attempted treatment. The
Shreveport Fire Department arrived at the store at approximately 3:39 a.m. Lifesaving
measures were attempted and Sergeant Prunty was transported to a local hospital where
he later succumbed to his injuries. The autopsy indicated that he received five gunshot
wounds to both legs and feet; the leg wounds were inflicted from behind. Sergeant
Prunty's cause of death was loss of blood, which resulted largely from a laceration of the
popliteal artery in his left upper leg; the bullet also fractured his distal femur and kneecap.
A second wound to his upper left leg shattered his left femur and caused blood loss.
*2 After the description of the vehicle and driver was broadcast, several Shreveport police
patrol officers began looking for a red Camaro driven by a white, heavyset male with a
goatee.1 Shortly thereafter, several officers saw the vehicle and pursued the driver for
eight to ten minutes before the vehicle stopped in a hotel parking lot. Glass particles fell
from the Camaros' T-top throughout the chase.
Upon stopping the vehicle at 3:51 a.m., the driver opened his car door, held up a
handgun, ejected its magazine and a live cartridge and dropped the weapon onto the
pavement before standing up from the car. Upon being ordered to drop to the ground, the
driver slowly complied and police eventually handcuffed him. When the driver would not
yield his right arm, officers utilized distraction strikes to his hands, back, rib and shoulders.
The suspect was advised of his rights and placed in a patrol vehicle. He informed a
Shreveport Police Detective that his name was Christopher Cope. Because Cope was
actively bleeding from abrasions above the eye and on his cheek, he was provided
treatment from the Shreveport Fire Department.
Cope was transported to the Shreveport Police Department, Violent Crimes Bureau, at
approximately 5:00 a.m. He was kept separate from other witnesses and made
comfortable. His transport officers stayed with him in the room for approximately 30
minutes to an hour, and Cope made no statements to them other than asking how “he'
was.
Cope was interviewed at 7:00 a.m., after being read his rights a second time. In a
statement, Cope admitted to being the shooter, but suggested that he wanted the police
officer to kill him. Cope indicated that he drank six or seven beers earlier in the evening
but was not drunk. He had watched fights at a friend's house, hung out with a group of
friends who had gathered on a local roadway, and visited a girlfriend. It was after he left
the friend’s house that he shot at the security guard house of a local subdivision across
town with his Smith and Wesson .40 caliber gun. He then stopped at the convenience
store intending to get a beer. He claimed that he did not make enough money to support
himself, was still living at home, and was in a "funk." He stated that his mind “went blank"
and he "done what [he] done." He had “no reasonable explanation” for it other than his
“stupidity.”
Sonnier was able to identify Cope as the shooter in a photographic lineup. On December
2, 2010, a grand jury indicted Cope for the first degree murder of Sergeant Prunty.2 Trial
began on October 25, 2012. Cope was convicted as charged and sentenced to life
imprisonment.
State v. Cope. 48,739 (La.App. 2 Cir. 4/9/14, 1-2), 137 So.3d 151, 155, writ denied.
2014-1008 (La. 12/8/14), 153 So.3d 440.
After the jury deadlocked on the sentencing portion of the proceedings, the court imposed a
life sentence at hard labor without benefits. See id. Cope appealed his conviction, alleging
three assignments of error: (1) denial of the motion to suppress the confession; (2) denial of
the motion for change of venue; and (3) denial of right to present evidence that victim's
wounds were survivable. The conviction was affirmed on appeal, and the Louisiana
Supreme Court denied Cope's request for review of the same claims. Id.
*3 Cope filed an application for post-conviction relief on October 12, 2015, alleging four
claims for relief: (1) denial of the motion to suppress the confession; (2) denial of the motion
for change of venue; (3) denial of the right to testify; and (4) ineffective assistance of trial
counsel. (Doc. 1-3, p. 43; Doc. 14-34, pp. 112-146). The trial court found the denial of
Cope’s motions had been addressed on direct appeal, and that Cope failed to establish

2 of 15

7/27/21, 8:46 AM

Cope v. Vannoy j WestlawNext

https://nextcorre<^^ial.wes tlaw.com/Document/Iae449e30a42111...

ineffective assistance. (Doc. 14-34, pp. 155-156). Writs were denied by the Louisiana
Second Circuit Court of Appeal. (Doc. 14-35, p. 57). The Louisiana Supreme Court denied
writs on August 4, 2017, finding that Cope's claims were repetitive, and that Cope could not
show ineffective assistance of counsel. State ex rel. Cope v. State. 2016-0481 (La. 8/4/17),
222 So.3d 707.
Cope alleges that he did not receive a copy of the Louisiana Supreme Court's ruling. (Doc.
1-3, pp. 55-56). Therefore, on December 18, 2017, Cope wrote to the Louisiana Supreme
Court to check the status of his case. The court inaccurately responded: 'Your writ
application is pending. The Court will notify you when it has reached a decision in this
matter.” (Doc. 1-3, p. 51). Cope waited for the ruling and sent another inquiry to the court on
September 14, 2018. (Doc. 1-3, p. 52). This time, the court accurately reported that the writ
application had been denied on August 14, 2017. (Doc. 1-3, p. 52). Cope filed his § 2254
petition in this Court, seeking equitable tolling.
II. Law and Analysis
A. Cope's claims can be resolved under Rule 8(a) of the Rules Governing 6 2254
Cases.
The Court is able to resolve Cope's § 2254 Petition (Doc. 1) without the necessity of an
evidentiary hearing because there are no genuine issues of material fact relevant to Cope's
claims, and the state court records provide an adequate factual basis. See Mova v. Estelle.
696 F.2d 329, 332-33 (5th Cir. 1983); Easter v. Estelle. 609 F.2d 756, 761 (5th Cir. 1980);
Habeas Corpus Rule 8(a).
B. The Court must conduct a deferential review under 28 U.S.C. 6 2254.
An application for writ of habeas corpus on behalf of a person in custody pursuant to the
judgment of a state court shall be considered only on the ground that the applicant is in
custody in violation of the Constitution, laws, or treaties of the United States. 28 U.S.C. §
2254(a). The role of a federal habeas court is to guard against extreme malfunctions in the
state criminal justice systems, not to apply de novo review of factual findings or to substitute
its own opinions for the determinations made by the trial judge. See Oavis v. Avala. 576 U.S.
257, 135 S. Ct. 2187, 2202, 192 L.Ed.2d 323 (2015) (citing Harrington v. Richter. 562 U.S.
86, 102-03, 131 S.Ct. 770, 178 L.Ed.2d 624 (2011)).
Under § 2254 and the Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”),
habeas relief is not available to a state prisoner with respect to a claim that was adjudicated
on the merits in the state court proceedings unless the adjudication of the claim: (1) resulted
in a decision that was contrary to or involved an unreasonable application of clearly
established federal law as determined by the Supreme Court of the United States; or (2)
resulted in a decision that was based on an unreasonable determination of the facts in light
of the evidence presented in the state court proceeding. See Martin v. Cain. 246 F.3d 471,
475-76 (5th Cir. 2001), cert den., 534 U S. 885, 122 S.Ct. 194, 151 L.Ed.2d 136 (2001).
Therefore, § 2254(d) demands an initial inquiry into whether a prisoner's claim has been
"adjudicated on the merits" in state court; if it has, AEOPA's highly deferential standards
apply. See Davis. 135 S. Ct. at 2198 (citing Richter. 562 U.S. at 103, 131 S.Ct. 770).
When a federal claim has been presented to a state court and the state court has summarily
denied relief without a statement of reasons, it may be presumed that the state court
adjudicated the claim on the merits, in the absence of any indication or state law procedural
principles to the contrary. Richter. 562 U.S. at 99, 131 S.Ct. 770. A habeas court must
determine what arguments or theories supported, or could have supported, the state court's
decision, and whether it is possible fair-minded jurists could disagree that those arguments
or theories are inconsistent with the holding in a prior decision of the Supreme Court. See
Richter, 562 U.S. at 102, 131 S.Ct. 770. Where a state court's decision is unaccompanied by
an explanation, the habeas petitioner's burden must be met by showing there was no
reasonable basis for the state court to deny relief. Richter. 562 U.S. at 98, 131 S.Ct. 770.
*4 A state court decision is “contrary to" clearly established Supreme Court precedent if the
state court applies a rule that contradicts the governing law set forth in Supreme Court
cases, or confronts a set of facts that are materially indistinguishable from a decision of the
Supreme Court and nevertheless arrives at a result different from Supreme Court precedent.
A state court decision falls within the “unreasonable application’ clause when it
unreasonably applies Supreme Court precedent to the facts. £§§ Martin. 246 F3d at 476;
see also Rivera v. Quarterman. 505 F.3d 349, 356 (5th Cir. 2007), cert, den.. 555 U.S. 827,

3 of 15

7/27/21, 8:46 AM

Cope v. Vannoy | WestlawNext

https ://nextcorre^^al.westlaw.com/Document/Iae449e30a42111...

129 S.Ct. 176, 172 L.Ed.2d 44 (2008).
A federal habeas court making the unreasonable application inquiry should determine
whether the state court's application of clearly established federal law was objectively
reasonable. A federal court cannot grant habeas relief simply by concluding that the state
court decision applied clearty established federal law erroneously. Rather, a court must
conclude that such application was also unreasonable. See Martin. 246 F.3d at 476. An
unreasonable application is different from an incorrect one. See Bell v. Cone. 535 U.S. 685,
694, 122 S.Ct 1843, 152 L.Ed.2d 914 (2002). When a state court determines that a
constitutional violation is harmless, a federal court may not award habeas relief under §
2254 unless the harmlessness determination itself was unreasonable. See Mitchell v.
Esparza. 540 U.S. 12, 18, 124 S.Ct. 7, 157 L.Ed.2d 263 (20031: see also Davis. 135 S. Ct.
at 2199 (citing Frv v. Pliler. 551 U.S. 112, 119, 127 S.Ct. 2321, 168 L.Ed.2d 16 (2007)).
C. Cope cannot establish a violation with reoard to his confession.
Cope alleges that the trial court erred in denying his motion to suppress his confession,
which “was the product of fear, duress, intimidation, menaces, threats, inducements and/or
promises.” (Doc. 1, p. 30). Cope states that, after he was detained, he was advised of his
Miranda rights at the scene by Officer Jason Allgrunn. (Doc. 1, p. 30). Cope maintains that
Officer Allgrunn stated, "I wish you would have pointed that gun at us," and told other
officers to ”[g]ive this guy some love." (Doc. 1, p. 32). Cope was transported by an officer
that admitted to striking Cope during his arrest. (Doc. 1, p. 30). Thus, Cope alleges that he
was led to believe that he had to confess. (Doc. 1, p. 34). Cope argues that his confession
was not voluntary and should have been suppressed. (Doc. 1, p. 34).
Cope's claim is without merit. A state court adjudication must be upheld unless it resulted in
a decision that was contrary to, or involved an unreasonable application of, clearly
established federal law, as determined by the Supreme Court. See Martin. 246 F.3d at
475-76; 28 U.S.C. § 2254(d)(1). The final reasoned state court opinion addressing this claim
set forth the factual basis for its findings in great detail:
At the hearing on the motion to suppress, the defense examined five of the Shreveport
Police officers who secured Cope and placed him in custody. Each of these officers also
testified at trial.
Officer Jason Allgrunn testified he was one of the six or seven officers who converged
upon Cope when he exited his car. Allgrunn read Cope his rights at a distance of
approximately six inches from his left ear as he was lying face down. Cope indicated he
understood his rights by nodding. Cope softly told Allgrunn that he was not resisting
arrest. Allgrunn did not smell alcohol on Cope's breath.
Allgrunn stated that he never threatened Cope, did not promise anything to him or strike
his person. He saw no other officer strike Cope and did not hear anyone threaten him or
promise him anything. Allgrunn admitted that he made two statements, which can be
heard on his mobile video system ("MVS"). Those included his comments that “I wish you
would have pointed that at us,” and “Give this guy some love."
*5 Sergeant Wiley Lindsey testified that once Cope was on the ground, numerous officers
assisted in taking him down. He indicated that “they were trying to place his hands behind
his back, and he kept resisting, wouldn't put both of them behind his back." Lindsey
testified that "distraction strikes" were used in an attempt to get Cope's hands behind his
back for handcuffing. He stated the strikes were performed with fist blows upon Cope's
arms, leg, thigh, and sides until he gave up his hands.
Lindsey's MVS was played, and he narrated it. He acknowledged hearing vulgarity on the
tape at the time of Cope's arrest, but did not know who made the statements. He stated
that Cope did not respond in any way to the language. He stated that after Cope's arrest,
he was treated by the Shreveport Fire Department for abrasions on his face and arms.
Lindsey described the abrasions as being from the pavement because Cope was face
down.
Exhibit S-1 included the MVS evidence from both Sergeant Lindsey’s and Officer
Allgrunn's vehicles. The exhibit also contained the MVS evidence from Corporals Tabor's
and Hodges' vehicles, two officers who assisted in Cope's arrest but did not testify at the
hearing.

4 of 15

7/27/21, 8:46 AM

Cope v. Vannoy | WestlawNext

https://nextcorre^^ial.westlaw.com/Document/Iae449e30a42111...

Notably Sergeant Tabor’s MVS was the only one to depict the details of Cope’s arrest. It
showed that upon the officers’ verbal commands to Cope to lie on the ground, he slowly
complied, lying face down on the pavement. Thereafter, 9 to 11 officers converged upon
Cope. The video shows the securing officers having difficulty in handcuffing Cope's right
hand. In an effort to secure the hand, Officer Hodges administered one or two strikes to
his back, and one unnamed officer kicked him once near his upper body. Another officer
administered several fist strikes near his shoulders. Within seconds thereafter, Cope's
hand is secured, and he is handcuffed at approximately 3:32 a.m.
All officers then removed themselves from Cope. He was turned on his back and
searched. He was placed face down again where he remained until 4:11 a.m., when he
was placed in Officer Hodges' vehicle. In this interim period, officers are seen standing
near Cope. Notably, one officer can been seen leaning over Cope and yelling at him. A
second officer leaned down near Cope's ear for a few seconds as if he were whispering to
him, although nothing can be heard on the video.
A photograph of Cope was taken at the police station after his arrest. It shows minor
abrasions around Copes right eye and cheek.
Lieutenant Jimmy Muller testified that in his position as the Detective Bureau Executive
Officer, he assigned tasks for the detectives servicing the case. He instructed Officers
Hodges and Minor, who transported Cope to the station, to maintain Cope as a suspect
separate from any other witnesses. Cope was taken to the property crimes unit and
placed in an empty office. Hodges sat with Cope in the room with Minor outside the door.
Muller asked Cope if he wanted him to call his father. Cope declined the offer but stated
that he was thirsty. He was provided water and allowed to take his handcuffs off while
waiting to be interviewed. Restroom facilities were provided for Cope. Muller did not ask
Cope anything or threaten or promise anything to him. Cope appeared lucid to Muller. He
stated that Cope did not appear to be intoxicated or under the influence of anything.
Sergeant Jody Jones testified that he was in charge of the day shift homicide unit and was
on call the weekend of this event. Jones and Detective Lane Smith interviewed Cope,
having waited until other witnesses had first been interviewed.
*6 Cope was interviewed at 7:00 a.m. No pre-interview was conducted. In fact, Jones had
no contact with Cope prior to the formal interview. An audio recording of the interview was
placed in evidence. Jones testified that videotape recorders were never used in his
division.
Jones testified that Cope was read his rights a second time prior to giving a statement.
Cope was not upset or emotional. Jones identified a copy of the waiver form signed by
Cope. Jones recalled that Cope understood what was being shown to him. He did not
appear to be intoxicated, was offered no inducement to sign the document, was not
promised any benefit for giving a statement, and was not threatened in any way. Cope
was not tested for intoxication. Cope signed the form and verbally acknowledged that he
was willing to waive his rights.
Detective Lane Smith had actually spoken to Cope before he was taken to the station and
had assigned Officer Hodges and Minor to protect Cope from any hostility of other
officers. He confirmed Jones's testimony concerning Cope's condition during his
statement.
Officer Chhs Hodges, who testified at trial, was also present as Cope exited his car and
was arrested. He issued commands to Cope to get out of the car. Cope complied. Hodges
proceeded to Cope and attempted to handcuff him. He described Cope as ‘‘tense.” It was
Hodges who “delivered a couple of strikes to his back to gain compliance" and was then
able to get him handcuffed. Hodges recalled that it was Cope's right arm that was not
yielding, “up towards the front of his chest area." He was concerned that Cope had a
weapon. When questioned about the video of Cope's arrest, Hodges admitted that other
officers delivered strikes to get Cope into handcuffs.
Hodges explained that a distraction blow is a closed fist strike used to gain compliance,
which can be done to the back or ribs in an effort to pull the arm out. Hodges did use his
fists and inflicted the blows ‘in the shoulder area of [Cope’s] back.” After Cope was
handcuffed, Hodges rolled him over to his back and conducted a pat-down search for
weapons. Hodges did not recall that Cope said anything.

5 of 15

7/27/21, 8:46 AM

Cope v. Vannoy | WestlawNext

https ://nextcoire^^al.westlaw.com/Document/Iae449e30a42111...

Hodges also testified that at the station he never questioned Cope during the time that he
guarded him. Cope never asked for food or for a lawyer or to speak to relatives or to
friends. Hodges described Cope as being without emotion. He recalled that Cope asked
how ■he" was, referring to Sergeant Prunty. Hodges told Cope that he did not know,
although he knew the officer was deceased.
Officer Jimmie Minor was called at trial by the defense. Minor first became involved with
Cope as he was taken into custody. He stayed with Cope on the scene and then followed
Officer Hodges to the Shreveport Police Department. The room where Cope was guarded
was fairly deserted and no other officers came into contact with him. Minor was instructed
to stay with Cope until detectives arrived to interview him. He recalled that his time with
Cope spanned nearly two hours. Minor was instructed to keep Cope comfortable. He
testified that he was not abusive toward Cope, who was quiet and stared at the ground
most of the time. Minor recalled that Cope asked him "several times' how the Sergeant
was doing.
As a DWI enforcement officer. Minor saw nothing in Cope to cause him to request a
breath test. Minor stated that Cope was able to walk to the bathroom on his own, did not
request to speak to a lawyer or to his father or any family members or friends. He never
used physical force against Cope or threaten him in any way. He and Officer Hodges
never promised him anything. Minor recalled that Cope's eyes were red and moist. Minor
saw Cope cry on one occasion during his custody, but he never said he was sorry for
what he did.
*7 The record before us does not demonstrate error in the trial court's determination that
Cope's statement was free and voluntary. Eight officers testified about the circumstances
leading to Cope's statement. His recorded statement reveals a coherent, cooperative
defendant who responded appropriately to the Interrogation. He answered all questions
appropriately despite his claims of being “particularly vulnerable" as a 24-year-old
dropout. His awareness of his situation is shown by his inquiries about the condition of
Sergeant Prunty. It is undisputed that Cope was informed of his rights on two occasions,
once immediately prior to his statement. His waiver of those rights was likewise clear,
calm and logical. Significantly, Cope was afforded physical comfort in the two hours in
which he waited to be interviewed. After the initial scuffle with the officers, his contact with
police officers was limited to the two who guarded him and the two who interviewed him.
The record does not support Cope's claim that the ’threats" and “abuse” he received at
the arrest scene and during transport defeated the state's burden of proof. Although the
video evidence of Cope's arrest shows that officers struck Cope several times, it. also
corroborates the officers’ testimony that the strikes were used during their struggle to
obtain Cope's right hand. The distraction strikes, including the inappropriate kick by one
officer, occurred for only seconds, were not excessive and accomplished their purpose
quickly. The only noticeable physical injuries Cope received as the result of his arrest
were minor abrasions to his face, for which he received immediate treatment.
Likewise, Hodges’ actions during arrest were legitimate methods of subduing Cope, and
the video evidence of Cope's transport reveals no evidence of actual or perceived
coercion by Hodges. In fact, that evidence shows that neither Cope nor Hodges made any
statements during travel. Ultimately, Hodges never interviewed Cope and answered only
one question.
The statements made by officers at the arrest scene, while emotionally charged, were not
shown to have been intended to obtain a confession. The video shows that Cope had
limited close-up exposure to police at the arrest scene and the statements made to him
were one-time events of short duration.
From this evidence it was not unreasonable for the trial court to conclude that statements
made by the officers reflected their anger at Cope for shooting a fellow officer rather than
coercive efforts to obtain a statement of guilt and that the force used by the officers was
designed to subdue Cope and not to compel a confession. Ultimately, with Cope's
confession being given some two hours after any of these events, we find no error in the
trial court's determination that statements made to Cope at his arrest did not render his
statement involuntary. For these reasons, this assignment of error has no merit.
Cope, 137 So.3d at 158-162.

6 of 15

7/27/21, 8:46 AM

Cope v. Vannoy | WestlawNext

https://nextcorre^^ial.westlaw.com/Document/Iae449e30a42111...

As the State argues, Cope’s conclusory allegations are "contradicted by the audio, visual,
and testimonial evidence presented to the trial court at both the hearing on the Motion to
Suppress and the trial' and ‘are insufficient to present the clear error required to override
the presumption of correctness afforded to the state court's factual findings.” (Doc. 14-1, p.
23). Moreover, Cope has not demonstrated that the state court's ruling “resulted in a
decision that was contrary to, or involved an unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of the United States." 22 U.S.C. §
2254(d)(1). There is no indication that Cope's statements were made without compliance
with the requirements of Miranda.
Lieutenant Muller testified that when Cope arrived at the police station, two officers were
assigned to him for his security and that he was offered water and the use of bathroom
facilities. In fact, Lieutenant Muller realized that Cope's father was a retired police captain
and offered to call his father to come to the station. Cope declined the offer. (Doc. 14-11, p.
90).
*8 Sgt. Jones testified that Cope was kept in a separate part of the police station where no
officers would interact with him in an effort to ensure his safety and to preserve the
investigation. (Doc. 14-11, pp, 107-08).
Detective Smith testified that he gave special instructions to protect Cope and ensure the
integrity of Cope's interrogation. (Doc. 14-11, p. 131). Detective Smith “made sure the
officers did not give the time that they left the scene or arrival at the office over the radio” ‘to
ensure that no one that might be upset about a brother officer being a victim could do
something rash.” (Doc. 14-11, p. 131).
Cope was arrested around 3:45 a.m., and his interview began around 7 a.m. More than
three hours passed between the chase and the time at which Cope confessed. (Doc. 14-11
p. 132).
According to the record, Cope was protected from harm and intimidation while in police
custody; he was offered the opportunity to have his father—a department veteran—meet
him at the station; and Cope freely made his statement. Thus, Cope's claim is without merit.
D. Cope cannot establish a constitutional error regarding venue,
Cope alleges that he was denied due process when the trial court denied his.motion to
change venue. According to the record, Cope did not present the federal nature of his claim
to the Louisiana Second Circuit Court of Appeals on direct review. He relied solely on state
law. (Doc. 14-33, pp. 289-91). On collateral review, Cope presented a federal basis for the
venue claim. (Doc. 14-34, p. 136). However, the trial court found the claim duplicative. (Doc.
14-34, p. 155). The Second Circuit denied writs “[o]n the showing made" (Doc. 14-35, p. 57),
and the Louisiana Supreme Court denied writs as repetitive. (Doc. 14-35, p. 117).
Procedural default exists where: (1) a state court clearly and expressly bases its dismissal of
a claim on a state procedural rule, and that procedural rule provides an independent and
adequate ground for the dismissal ("traditional” procedural default); or (2) the petitioner fails
to properly exhaust all available state remedies, and the state court to which he would be
required to petition would now find the claims proceduraily barred ("technical" procedural
default). In either instance, the petitioner is deemed to have forfeited his federal habeas
claim. Bledsue v. Johnson. 188 F.3d 250, 254-55 (5th Cir. 1999) (citing Coleman v.
Thompson. 501 U.S. 722, 735 n. 1, 111 S.Ct. 2546, 115 L.Ed.2d 640 (1986) and O’Sullivan
v. Boerckel. 526 U.S. 838, 119 S.Ct. 1728, 144 L.Ed.2d 1 (1999)).
Cope’s venue claim is subject to a “traditional" procedural default. "When the state court has
relied on an independent and adequate state procedural rule, federal habeas review is
barred unless the petitioner demonstrates either cause and prejudice or that a failure to
address the claim will result in a fundamental miscarriage of justice." Hughes v. Johnson.
191 F.3d 607, 614 (5th Cir. 1999). Cope has not provided evidence of cause or prejudice, or
a fundamental miscarriage of justice.
Due process for criminal defendants includes the right to a fair trial by a panel of impartial
jurors whose verdict must be based upon the evidence developed at trial without regard for
"the heinousness of the crime charged, the apparent guilt of the offender or the station in life
which he occupies.” Irvin v. Dowd. 366 U.S. 717, 722, 81 S.Ct. 1639, 6 L.Ed.2d 751 (1961).
“It is not required, however that the jurors be totally ignorant of the facts and issues
involved.” jcL "It is sufficient if the juror can lay aside his impression or opinion and render a

7 of 15

7/27/21, 8:46 AM

L

Cope v. Vannoy | WestlawNext

m

https://nextcorTecjjj^al.westlaw.com/Document/Iae449e30a42111...

verdict based on the evidence presented in court." ]cl
*9 The state court adjudication must be upheld unless it resulted in a decision that was
contrary to, or involved an unreasonable application of this clearly established federal law.
246 F.3d 471, 475-76 (5th Cir. 2001), ££iLd£[L 534 U.S. 885, 122 S.Ct.
194,151 l.Ed.2d 136 (2001); 28 U.S.C. § 2254(d)(1). Once again, the final reasoned state
court opinion addressing the venue claim set forth the basis for its findings in great detail:
Cope next argues that the trial court erred in denying his motion for change of venue
based upon the nature and extent of pretrial publicity. He asserts that such publicity
affected the jury venire to the extent that Cope could not obtain a fair and impartial jury.
In pretrial proceedings, the State stipulated to its release to the media of video from one of
the police vehicles documenting Cope's arrest. Subsequently, Cope filed a Motion for
Change of Venue arguing that the nature and extent of pretrial publicity, which was
"encouraged by the direct involvement of the District Attorney's Office,” was so pervasive
as to deprive him of a fair and impartial jury. With the agreement of the defense, the Court
deferred ruling on the motion until voir dire of potential jurors. After a jury of 12 was
selected and during voir dire for alternates, after each had been examined and challenged
on publicity, the defense re-urged its venue challenge.
The defense argued that Cope could not have a fair trial due to the percentage of jurors
who indicated exposure to the case and the inflammatory publicity, including the details of
the arrest and broadcast of Cope’s photograph. The court denied the defense's motion
pointing out that it had ‘painstakingly, individually questioned each and every prospective
juror on this issue.”
La. C. Cr. P. art. 622 states: A change of venue shall be granted when the applicant
proves that by reason of prejudice existing in the public mind or because of undue
influence, or that for any other reason, a fair and impartial trial cannot be obtained in the
parish where the prosecution is pending. In deciding whether to grant a change of venue
the court shall consider whether the prejudice, the influence, or the other reasons are
such that they will affect the answers of jurors on the voir dire examination or the
testimony of witnesses at the trial.
The right to an impartial jury and a fair trial is guaranteed to every defendant. See La.
Const, art. I, § 16; State v. Maaee. 11-0574 (La. 9/28/12), 103 So.3d 285. cert, denied.
— U.S.

•, 134 S.Ct. 56, 187 L.Ed.2d 49 (2013); State v. Sparks. 88-0017 (La.

5/11/11), 68 So.3d 435, cert, denied. 566 U.S. 908, 132 S.Ct. 1794, 182 L.Ed.2d 621
(2012). To effect this guarantee, the law provides for a change of venue when a defendant
establishes that he or she will be unable to obtain an impartial jury or a fair trial at the
place of original venue. IcL
It is only in exceptional circumstances, such as the presence of a trial atmosphere that is
utterly corrupted by press coverage or that is entirely lacking in solemnity and sobriety,
that prejudice against a defendant may be presumed. Maaee. supra. Otherwise, it is the
defendant's burden to demonstrate actual prejudice,
To meet this burden, a defendant must prove more than mere public general knowledge
or familiarity with the facts of the case. He must demonstrate the extent of prejudice in the
minds of the community as a result of such knowledge or exposure to the case. Maoee.
supra: State v. Clark, 02-1463 (La. 6/27/03), 851 So.2d 1055. cert, denied. 540 U.S. 1190,
124 S.Ct. 1433, 158 L.Ed.2d 98 (2004); State v. Frank, 99-0553 (La. 1/17/01), 803 So.2d
1. A defendant is not entitled to a jury entirely ignorant of his case and cannot prevail on a
motion for change of venue simply by showing a general level of public awareness about
the crime; rather, he must show that there exists such prejudice in the collective mind of
the community that a fair trial is impossible. Magee, supra: Clark, supra. Whether a
defendant has made the requisite showing of actual prejudice is a question addressed to
the district court's sound discretion, which will not be disturbed on appeal absent an
affirmative showing of error and abuse of discretion. Maaee. supra: Sparks, supra.
’10 In State v. Bell. 315 So.2d 307 (La. 1975), the Louisiana Supreme Court enumerated
several factors to be considered in the change of venue determination. These factors
include: (1) the nature of pretrial publicity and the degree to which it has circulated in the
community; (2) the connection of government officials with the release of the publicity; (3)
the length of time between the dissemination of the publicity and the trial; (4) the severity

8 of 15

7/27/21, 8:46 AM

#

Cope v. Vannoy J WestlawNext

https://nextcorre^^al.westlaw.com/Document/Iae449e30a42111...

and notoriety of the offense; (5) the area from which the jury is to be drawn; (6) other
events occurring in the community, which either affect or reflect the attitude of the
community or individual jurors toward the defendant; and (7) any factors likely to affect the
candor and veracity of the prospective jurors on voir dire.
In determining whether to change venue, the focus must extend beyond the prejudices
and attitudes of individual venire persons. The defendant must be allowed to show that,
even if it would be possible to select a jury whose members were not subject to a
challenge for cause, prejudice or influences exist within the community at large that would
affect the jurors’ answers during voir dire or the witnesses' testimony, or that for any other
reason, a fair and impartial trial could not be obtained in that venue. Magee, supra; Clark.
supra; Bell, supra. The district court's ultimate determination must rest on the community’s
attitude toward the defendant. Maaee. supra: Clark, supra.
In reviewing a denial of change in venue, the primary task of the court is to inquire as to
the nature and scope of publicity to which prospective jurors in a community have been
exposed and examine the lengths to which a court must go to impanel a jury that appears
to be impartial in order to ascertain whether prejudice existed in the minds of the public,
which prevented the defendant from receiving a fair trial. Magee, supra: Clark, supra.
In performing this review, courts must distinguish largely factual publicity from that which
is invidious or inflammatory, as the two present real differences in the potential for
prejudice.
While ultimately there is no bright line test for ascertaining the degree of
prejudice existing in the collective mind of the community, the seven Bel! factors help
facilitate the inquiry. Maaee. supra. In addition, courts have examined the number of
jurors excused for cause for having a fixed opinion as another gauge of whether prejudice
exists in the public mind. LL
Before consideration of the responses of potential jurors in the actual voir dire
examination in this case, Cope argues that the Caddo Parish jury pool was tainted by
news reports showing an MVS video of his arrest and his arrest photograph that were
given to a local television station by the District Attorney’s office. He contends that the
death of Prunty was "well known” in the community and 'left little doubt” in the minds of
the public about Cope's guilt.
Nevertheless, Cope made no showing regarding when or if the MVS video was run on the
news by a station. No tapes of local newscasts were placed in evidence. No print or
electronic media accounts were offered. In sum, no substantial body of pretrial publicity
was shown to the court, particularly, no direct evidence of the prejudicial or inflammatory
nature of the media information.
This lack of excessive and inflammatory publicity contrasts to other cases in the
jurisprudence examining the issue of venue change. See, for example, Maaee. supra,
which included extensive evidence of media coverage, including 200 pages of newspaper
articles, online comments from the public, transcripts of television coverage of the crime
and multiple DVDs containing recordings from major local media outlets; State v. Lee.
05-2098 (La. 1/16/08), 976 So.2d 109, cert, denied, 555 U.S. 824, 129 S.Ct. 143, 172
L.Ed.2d 39 (2008), in which the defense introduced “thousands of print and media stories”
about the case; Manning, supra, where 14 newspaper articles were submitted concerning
the crime; and Clark, supra, in which numerous newspaper articles relating to the case
and a number of transcripts from a local television station were introduced.
'11 Further, we have reviewed the information obtained by the actual examination of
prospective jurors. The trial court interviewed 190 potential jurors. Of those 190, 156
(82%) indicated that they had some exposure (most with vague factual recollections of the
events) to the case; 34(18%) individuals knew nothing about the case. The court
individually interviewed the 156 potential jurors.
Of the 156 jurors with knowledge of the death of the officer, 36 (19%) were removed for
preconceived opinions of the defendant's guilt. The defense challenged two additional
jurors for such pretrial opinions of guilt, which were denied by the court. An additional 18
potential jurors were challenged for cause due to impartiality because of relationships to
or with law enforcement (8), Prunty (5) or Cope (5). Ultimately, of the 15 jurors and
alternates chosen, 7 (47%) had no knowledge of the case. The remaining 8 jurors who
served on the case with some knowledge of the murder assured the court that they would

9 of 15

7/27/21, 8:46 AM

Cope v. Vannoy | WestlawNext

https://nextcorre^^al. westlaw.com/Document/Iae449e30a42111...

be able to decide the case solely on the evidence; one of those was an alternate juror.
Importantly, of the 82% of potential jurors who knew about the case, only a few expressed
more than a vague knowledge about the facts, which they had gleaned from the news or
from conversations. None mentioned seeing a video on the news. Only two recalled
seeing Cope's photograph. These facts fail to demonstrate any deep-seated pattern of
prejudice against the defendant. Rather, all that was shown is a general level of public
awareness about the crime. When compared with other cases in which the Supreme
Court has found no abuse of discretion in the denial of a venue change, this percentage
falls within the range of acceptable general public awareness. See for example, Maaee.
supra, in which 43% of prospective jurors noted their familiarity with the facts of a case;
Lee, supra, in which 98.4% were vaguely familiar with the case through media or
conversations; Clark, supra, in which 62.9% claimed some exposure to the case; Frank,
supra, where 97% of the venire had been exposed to some publicity; State v. Hoffman.
98-3118 (La. 4/11/00), 768 So.2d 542, cert, denied. 531 U.S. 946, 121 S.Ct. 345, 148
L.Ed.2d 277 (2000), in which 80% of the prospective jurors had awareness of the case
before trial; State v. Connolly. 96-1680 (La. 7/1/97), 700 So.2d810, in which 86.33% of
potential jurors possessed a vague recollection of the facts.
Likewise, the 19% of jurors with fixed opinions is inadequate to demonstrate reversible
prejudice in the public mind. All of the prospective jurors who expressed a pretrial opinion
of Cope's guilt based upon pretrial information of the crime were released for cause.
Moreover, such percentage also falls within ranges sanctioned by the courts as
i, 421 U.S. 794, 95 S.Ct. 2031,44 L.Ed.2d 589 (1975),
in which 26% with pretrial guilt opinions held not to show prejudice; Sparks, supra, where
12.5% fixed opinion was insufficient to demonstrate prejudice; Lee, supra, in which 32%
of potential jurors excused for exposure to case or fixed opinions found insufficient to
show public prejudice; Frank, supra, in which 15% of jurors excused due to an inability to
put aside preconceived disposition or outside information found insufficient to show
prejudice. Compare Irvin v. Dowd. 366 U.S. 717, 81 S.Ct. 1639, 6 L.Ed.2d 751 (1961), in
which 62% excused for fixed opinion indicated that impartial jurors were hard to find.
*12 After applying the first Bell factor to these facts, we cannot say that the defense has
shown that the events in question fostered such emotionally charged media coverage as
to prejudice Cope's right to a fair trial. Additionally, we do not find persuasive Cope's
arguments regarding the second Bell factor, the connection of government officials with
publicity. A review of the jurisprudence shows that this factor relates to statements made
by government officials connected to the case which are harmful or inflammatory and
incite prejudice in the minds of the public.
In this case, the District Attorney’s office stipulated that it had released the subject video
to a local television station. However, on the hearing for change of venue, the defense
presented no evidence that any government official involved in the matter, including any
individual from the District Attorney's office, made any comments or offered any opinion
about the case to the media. Thus, Cope's argument that the actions of the District
Attorney's office created communitywide prejudice against him such that he could not
receive a fair trial is not supported by the evidence. Compare Maaee. supra, where
comments by both the district attorney and sheriff regarding the gruesomeness of the
crime were reviewed.
The remaining five Bejl factors also afford Cope no relief and are not seriously raised in
argument. The trial in this matter occurred about two years after the crime. While the
murder of a police officer would necessarily receive media attention, the defense has not
shown that the case received more notoriety than any other capital murder case. Cope
has also failed to demonstrate that the area from which the jury was drawn showed
overriding prejudice in the community that prevented him from receiving a fair trial.
According to the 2010 Census, Caddo Parish has a population of 254,969 people. From
this large number of individuals, a qualified and fair jury was possible.
Given the broad discretion granted to trial courts in these matters, we cannot say that
Cope has established an abuse of discretion in the denial of his request for change of
venue. Overall, he has failed to demonstrate that prejudice against him existed in the
collective mind of the community such that a fair trial was not possible. For these reasons,
this assignment of error lacks merit.

10 of 15

7/27/21, 8:46 AM

L

Cope v. Vannoy | WestlawNext

https://nextcorre^^al.westlaw.com/Document/Iae449e30a42111...

Cope. 137 So.3d at 162-65.
The Second Circuit's thorough consideration of the claim follows Supreme Court
jurisprudence. The Second Circuit recognized the trial judge's careful management of the
voir dire process, including individual voir dire about exposure to pre-trial publicity; the
numbers of jurors who had some knowledge of the case compared to those who did not; the
depth of the knowledge those jurors had about the case; and the lack of evidence about the
extent of media publicity. The record reveals that 10 days of jury selection process passed
before the motion was urged. In denying Cope's motion to change venue, the trial court
stated:
In fact... I know that there has not been a single juror seated in this case that if the
defense counsel had requested a challenge for cause with regard to pretrial publicity the
Court would have granted it, and none was done.
To the contrary, defense counsel, and I noted this midweek, defense counsel was
rehabilitating several of the prospective jurors who said that they had formed an opinion of
guilt. For the record, l note most of those were African American females ....
But this is the 10th day of jury selection. The Court has painstakingly, individually
questioned each and every prospective juror on this issue. There has not been a single
objection by defense counsel to any of the jurors who have been selected. So the—
actually the, I believe that defense counsel has waived their right to object at this time.
The time to object was over the past 10 days when these jurors were being questioned ....
'13 ... This Court did conduct individual voir dire of each and every prospective juror who
was questioned in this case. The Court painstakingly, individually conducted voir dire on
each of those prospective jurors.
Defense counsel did not object to any of the 12 jurors who have been selected in this
case with regard to pretrial publicity and did not ask for a challenge for cause on any of
them.... Had they been objecting along to the pretrial publicity of any of the jurors, that
might have been a different, I might be of a different opinion.
(Doc. 14-24, pp. 8-9, 13-14).
The cases Cope now relies on, Rideau v. Louisiana, 373 U.S. 723, 83 S.Ct. 1417, 10
L.Ed.2d 663 (1963), Estes v. Texas. 381 U.S. 532, 85 S.Ct. 1628, 14 L.Ed.2d 543 (1965),
and Sheppard v. Maxwell. 384 U.S. 333, 86 S.Ct. 1507, 16 L.Ed.2d 600 (1966), are plainly
distinguishable from Cope’s case. In Rideau. the defendant's 20-minute taped interview by a
sheriff, in which he confessed in detail to bank robbery, kidnapping, and murder, was
repeatedly broadcast to a rural community. Rideau. 373 U.S. at 723-724, 83 S.Ct. 1417.
Accordingly, the United States Supreme Court found that the exposure was so widespread
that *[a]ny subsequent court proceedings in a community so pervasively exposed to such a
spectacle could be but a hollow formality.” jd. In Estes, there was “considerable disruption"
caused by the media during trial, and in Sheppard, there was a “carnival atmosphere."
Estes. 381 U.S. at 536, 85 S.Ct. 1628; Sheppard. 384 U.S. at 333, 86 S.Ct. 1507. There is
no evidence of such inflammatory publicity in Cope's case, and Cope cannot establish either
cause and prejudice or that a failure to address the claim will result in a fundamental
miscarriage of justice.
E. Cope fails to establish that he was denied his right to present evidence.
Cope alleges that he was denied his right to rebut the State’s claim that Sergeant Prunty's
wounds were not survivable. Cope cites Crawford v. Washington. 541 U.S. 36, 124 S.Ct.
1354, 158 L.Ed.2d 177 (2004) in support of his claim.
During Cope's trial, the court ruled that Cope would not be allowed to present evidence of
survivability through its expert. Cope sought writs in the Second Circuit relying on state law.
(Doc. 14-10, pp. 126-134). In his petition to the Louisiana Supreme Court, Cope cited
Crawford. Cope did not raise the claim in further post-conviction review. The State argues
that Cope's claim is not exhausted because Cope did not alert the Second Circuit to the
federal nature of his claim. Cope is now procedurally barred from re-raising the federal claim
in the state courts.
Under Louisiana Code of Criminal Procedure article 930.8, no application for post-conviction
relief shall be considered if it is filed more than two years after the judgment of conviction

11 of 15

7/27/21, 8:46 AM

Cope v. Vannoy | WestlawNext

https://nextcorre^^al.westlaw.com/Document/Iae449e30a42111...

and sentence has become final, unless any of the following apply:
(1) The application alleges, and the petitioner proves or the state admits, that the facts
upon which the claim is predicated were not known to the petitioner or his prior
attorneys. Further, the petitioner shall prove that he exercised diligence in attempting to
discover any post-conviction claims that may exist. “Diligence” for the purposes of this
Article is a subjective inquiry that must take into account the circumstances of the
petitioner. Those circumstances shall include but are not limited to the educational
background of the petitioner, the petitioner's access to formally trained inmate counsel,
the financial resources of the petitioner, the age of the petitioner, the mental abilities of
the petitioner, or whether the interests of justice will be served by the consideration of
new evidence. New facts discovered pursuant to this exception shall be submitted to
the court within two years of discovery.
*14 (2) The claim asserted in the petition is based upon a final ruling of an appellate court
establishing a theretofore unknown interpretation of constitutional law and petitioner
establishes that this interpretation is retroactively applicable to his case, and the petition
is filed within one year of the finality of such ruling.
(3) The application would already be barred by the provisions of this Article, but the
application is filed on or before October 1, 2001, and the date on which the application
was filed is within three years after the judgment of conviction and sentence has
become final.
(4) The person asserting the claim has been sentenced to death.
La. C. Cr. P. art. 930.8. Cope does not meet any of the exceptions provided by article 930.8
regarding the survivability claim.
Because Cope would now be time-barred from raising the federal claim in state court, his
claim is subject to a “technical" procedural default. See Bledsue. 188 F.3d 250, 254-5 (5th
Cir. 19991 (citing Coleman. 501 U.S. 722, 731-33, 111 S.Ct. 2546, 115 L.Ed.2d640 (1986)).
Cope cannot show “cause” for the default and “prejudice" attributable thereto, or
demonstrate that failure to consider the federal claim will result in a “fundamental
miscarriage of justice.” Finley v. Johnson. 243 F.3d 215, 220 (5th Cir. 2001) (citing Murray v.
Carrier. 477 U.S. 478, 485, 495 (1986)). Cope has not alleged any cause for his failure to
raise the federal nature of his claim in state court.
Moreover, Cope’s claim is factually inaccurate. Although the trial court initially ruled against
Cope, the Second Circuit reversed the ruling, and Cope was actually allowed to present his
defense of survivability. (Doc. 14-10, p. 148; Doc. 14-31, pp. 121-24).
Specifically, the trial court allowed Cope to present evidence regarding the survivability of
the wounds through the testimony of his expert, Dr. Lauridson. (Doc. 14-31, pp. 84-102). For
example, Dr. Lauridson stated that Sergeant Prunty's popliteal injury would have caused the
most blood loss. (Doc. 14-31, p. 98). He explained that the simplest and most effective
treatment for this condition is pressure or compression applied to the wound to close the
vessel. (Doc. 14-31, p. 98). Dr. Lauridson believed that if pressure had been applied
between five and eight minutes after the injury, Sergeant Prunty would not have developed
severe hemorrhagic shock that led to his death. (Doc. 14-31, p. 99). He stated that
compression applied within this timeframe “would have greatly increased" the officer's
survivability. (Doc. 14-31, p. 99). Dr. Lauridson admitted that pooling of blood in the groin
area might have led medical personnel to think that the upper thigh wound, rather than the
wound to the knee, was the wound that had lacerated an artery and caused the blood loss.
(Doc. 14-31, p. 108). Therefore, Cope’s claim is unsupported by the record.
F. Cope was not denied the right to testify.
Cope claims that his constitutional rights were violated when he was denied the right to
testify at trial. Cope alleges that he “insisted to his counsel numerous times that he wanted
to testify." (Doc. 1, p. 46). Cope raised the claim in his post-conviction proceedings, but it
was denied because he did not raise the claim in his pre-trial proceedings or on appeal.
(Doc. 14-34, pp. 155-56). The trial court relied on article 930.4 of the Louisiana Code of
Criminal Procedure. (Doc. 14-34, pp. 155-56). Because the state court relied on an
independent and adequate state procedural rule, federal habeas review is barred unless
Cope can demonstrate either cause and prejudice or that a failure to address the claim will
result in a fundamental miscarriage of justice. Hughes. 191 F.3d at 614. Cope does not

12 of 15

7/27/21, 8:46 AM

Cope v. Vannoy | WestlawNext

https://nextcorre^pial.westlaw.com/Document/Iae449e30a42111...

demonstrate cause or prejudice or a fundamental miscarriage of justice.
*15 A defendant in a criminal case has the right to take the witness stand and to testify in his
or her own defense. Rock v. Arkansas. 483 U.S. 44, 49, 107 S.Ct. 2704, 97 L.Ed.2d 37
(1987). However, a petitioner in a habeas proceeding cannot prevail on such a claim merely
by stating to the habeas court that he told his trial attorney that he wished to testify and that
his attorney forbade him from taking the witness stand. See Turcios v. Dretke. 2005 WL
3263916, *6 (S.D. Tex. 2005) (citing Underwood v. Clark. 939 F.2d 473, 475-76 (7th Cir.
1991)).
At no time during the trial did Cope object or complain about his right to testify. In fact, at the
conclusion of both the trial and sentencing, Cope was advised by the trial judge of his right
to testify. Cope confirmed that he understood the right, and it was his decision not to testify.
(DOC. 14-31, pp. 166-67; Doc. 14-33, pp. 103-4).
There is nothing in the trial record to suggest that Cope's alleged desire to testify was
rebuffed by his counsel or the trial court. Cope's conclusory allegation is contradicted by the
transcript and insufficient to support his claim.
G. Cope cannot establish ineffective assistance of counsel.
Cope alleges that counsel was ineffective by denying his request to testify in his own
defense at trial and conceding his guilt to the jury. In Strickland v. Washington. 466 U.S. 668,
104 S.Ct. 2052, 80 L.Ed.2d 674 (1984), the United States Supreme Court established a twopart test for evaluating claims of ineffective assistance of counsel. A petitioner seeking relief
must demonstrate that counsel's performance was deficient, and that the deficient
performance prejudiced his defense. See id. at 697, 104 S.Ct. 2052.
To prevail on the deficiency prong, a petitioner must demonstrate that counsel's conduct fails
Johnson. 262 F.3d 438, 450 (5th Cir. 2001). "Counsel’s performance is deficient if it falls
below an objective standard of reasonableness." Little v. Johnson. 162 F.3d 855, 860 (5th
Cir. 1998). Analysis of counsel’s performance must consider the reasonableness of
2052. “[I]t is necessary to 'judge ... counsel's challenged conduct on the facts of the
particular case, viewed as of the time of counsel's conduct.’" Lockhart v. Fretwell. 506 U.S.
364, 371, 113 S.Ct. 838, 122 L.Ed.2d 180(1993) (quoting Strickland. 466 U.S. at 690, 104
S.Ct. 2052). The petitioner must overcome a strong presumption that the conduct of his
counsel falls within a wide range of reasonable representation. £§§ Crockett v. McCotter.
796 F2d 787, 791 (5th Cir. 1986); Mattheson v. Kina 751 F.2d 1432, 1441 (5th Cir. 1985).
In order to prove prejudice with respect to trial counsel's actions, a petitioner “must show
that there is a reasonable probability that, but for counsel’s unprofessional errors, the result
of the proceeding would have been different." Strickland. 466 U.S. at 694, 104 S.Ct. 2052. In
this context, a reasonable probability is “a probability sufficient to undermine confidence in
the outcome." Id, In deciding whether prejudice occurred, courts must review the record to
determine “the relative role that the alleged trial errors played in the total context of [the]
trial." Crockett. 796 F2d at 793. If a court finds that the petitioner has made an insufficient
showing as to either of the two prongs of inquiry, it may dispose of the claim without
addressing the other prong. Strickland. 466 U.S. at 697, 104 S.Ct. 2052.
‘16 A claim of ineffective assistance of counsel is a mixed question of law and fact. Moore v.
Cockrell. 313 F.3d 880, 881 (5th Cir. 2002). Therefore, this Court must defer to the state
court on such claims unless the state court's decision "was contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined by the Supreme
Court of the United States." 28 U.S.C. § 2254(d)(1).
Cope has not shown that his counsel rendered ineffective assistance by refusing to allow
him to testify. The record establishes conclusively that Cope was advised on two occasions
by the court of his right to testify and that the decision was his, and both times Cope stated
decisively that he did not wish to do so. (Doc. 14-31, pp. 166-67; Doc. 14-33, pp. 103-4).
Thus, Petitioner has failed to carry his burden of showing that the state court's ruling
denying this claim is in contravention to or an unreasonable application of Strickland.
Next, Cope argues that an alleged confession of guilt by his trial counsel violated his
constitutional rights under United States v. Cronic. 466 U.S. 648, 104 S.Ct. 2039, 80 L.Ed.2d
657 (1984) and McCov v. Louisiana.

13 of 15

U.S.-------, 138 S. Ct. 1500, 200 L.Ed.2d 821

7/27/21, 8:46 AM

Cope v. Vannoy | WestlawNext

https://nextcorre^^ial. westlaw.com/Document/Iae449e30a42 111...

(2018). Cope did not raise the McCov claim in the lower courts.
Cronic held that, if counsel entirely fails to subject the prosecution’s case to a meaningful
adversarial testing, then there has been a denial of Sixth Amendment rights and the
adversary process is presumptively unreliable. Cronic. 466 U.S. at 659, 104 S.Ct. 2039.
Cronic is reserved only for those extreme cases in which counsel fails to present any
defense. Havnesv. Cain. 298 F.3d 375, 381 (5th Cir. 2002).
Cope's attorneys filed numerous motions to suppress statements and evidence, and a
hearing was conducted on the motions. (Doc. 14-11, pp. 6-173). At the hearing. Cope's
attorneys examined five of the police officers who secured Cope and placed him in custody.
(Doc 14-11, pp. 6-173). Cope's attorneys also pursued a motion for change of venue. (Doc.
14-8, pp. 146-149), Cope's attorneys spent weeks selecting a jury and trying the case.
There is no evidence indicating that Cope's attorneys failed to provide zealous and effective
representation. Therefore, Cope cannot establish that the state court’s ruling is in
contravention to or an unreasonable application of Cronic.
Finally, Cope alleges that his counsel's strategy of conceding guilt in spite of Cope's
objection entitles him to a new trial under McCov. First, the McCov claim was not raised in
post-conviction litigation as McCov had not yet been decided. Cope had the right under La.
C. Cr. P. art. 930.8A(2) to file a second application for post-conviction relief in the trial court
for purposes of making a McCov claim. However, there is no evidence that Cope filed a
second application raising the McCov issue, and Cope does not allege that he exhausted
the claim.
Under article 930.8(A)(2) of the Louisiana Code of Criminal Procedure, Cope had one year
from the Supreme Court's ruling in McCov to bring his claim in the state courts. That time
expired on May 14, 2019. Therefore, if Cope was to now attempt to raise the claim in the
state courts, it would be time-barred.
Because Cope did not exhaust state court remedies and the time within which to do so has
lapsed, the McCov claim is “technically" procedurally defaulted. See Bledsue. 188 F.3d at
254-5 (citing Coleman. 501 U.S. at 731-33, 111 S.Ct. 2546). In order to Obtain review of the
McCov claim, Cope has to show “cause" for the default and "prejudice" attributable thereto,
or demonstrate that failure to consider the federal claim will result in a ''fundamental
miscarriage of justice." Finley, 243 F.3d at 220 (citing Carrier, 477 U.S. at 485, 495).
"17 Cope has not alleged any cause for his failure to file a post-conviction application raising
the McCov claim. In fact, Cope fails to address the issue of exhaustion entirely in his reply to
the State's response to the petition. (Doc. 15).
Likewise, Cope cannot meet the fundamental miscarriage of justice exception, which is
limited to cases where the petitioner can make a persuasive showing that he is actually
innocent of the charges against him. See Coleman. 501 U.S. at 750, 111 S.Ct. 2546; Ward v.
Cain. 53 F.3d 106, 108 (5th Cir. 1995). Essentially, Cope would have to show that, as a
factual matter, he did not commit the crime for which he was convicted. Fairmanv,
Anderson. 188 F.3d 635, 644 (5th Cir. 1999). Cope has not alleged that he is actually
innocent, and he has presented no factual support for such a claim.
Regardless, Cope's case is distinguishable from McCov. At the beginning of the opening
statement in McCoy's trial, his attorney told the jury there was "no way reasonably possible"
that they could hear the prosecution's evidence and reach “any other conclusion than Robert
McCoy was the cause of these individuals' death.” McCov, 138 S.Ct. at 1506. McCoy
protested; out of earshot of the jury, McCoy told the court that his attorney was “selling [him]
out" by maintaining that McCoy "murdered (his] family." ]d The trial court reiterated that
counsel was "representing" McCoy and told McCoy that the court would not permit “any
other outbursts." kL at 1507. Continuing his opening statement, counsel told the jury the
evidence is "unambiguous" [that] “my client committed three murders." Id. at 1507. “McCoy
testified in his own defense, maintaining his innocence and pressing an alibi difficult to
fathom." ]d
In his closing argument, counsel reiterated that McCoy was the killer and that he “took [the]
burden off of [the prosecutor].” (d. The jury then returned a unanimous verdict of guilty of
first-degree murder on all three counts. At the penalty phase, counsel again conceded
“Robert McCoy committed these crimes," but urged mercy in view of McCoy's “serious
mental and emotional issues." [d The jury returned three death verdicts, kl

14 of 15

7/27/21, 8:46 AM

Cope v. Vannoy | WestlawNext

https://nextcorrecjpal.wesllaw.com/Document/Iae449e30a42111...

The Supreme Court observed that McCoy "opposed [counsel's] assertion of his guilt at every
opportunity, before and after trial, both in conference with his lawyer and in open court.”
McCov. 138 S.Ct. at 1509. McCoy's objection was clearly stated and persistent. But here,
there is no indication in the record that Cope ever objected to his attorney's strategy. In fact.
Cope does not state when he supposedly objected to the strategy. At no point during
opening statement, closing argument, or during recesses, did Cope voice any objection to
his attorneys' arguments or theories. “[A] court must indulge a strong presumption that
counsel's conduct falls within the wide range of reasonable professional assistance;" that is,
a petitioner “must overcome the presumption that, under the circumstances, the challenged
action 'might be considered sound trial strategy.' “ Strickland 466 U.S. at 689, 104 S.Ct.
2052 (citing Michel v. State of La.. 350 U.S. 91, 101, 76 S.Ct. 158, 100 L.Ed. 83(1955)).
III. Conclusion
Because Cope’s claims are procedurally defaulted or without merit, IT IS RECOMMENDED
that his Petition (Doc. 1) be DENIED and DISMISSED WITH PREJUDICE.
*18 Under the provisions of 28 U.S.C. § 636(b)(1 )(c) and Fed. R. Civ. P. 72(b), any party
may serve and file with the Clerk of Court written objections to this Report and
Recommendation within fourteen (14) days after being served with a copy thereof, unless an
extension of time is granted under Fed. R. Civ. P. 6(b). A party may respond to another
party's objections within fourteen (14) days after being served with a copy thereof. No other
briefs (such as supplemental objections or reply briefs) may be filed, unless a party shows
good cause and obtains leave of court. The District Judge will consider timely objections
before issuing a final ruling.
A party's failure to file written objections to the proposed factual findings, conclusions, and
recommendations contained in this Report and Recommendation within fourteen (14) days
after being served with a copy thereof, or within any extension of time granted by the Court
under Fed.R.Civ.P. 6(b), shall bar that party from attacking either the factual findings or the
legal conclusions accepted by the District Judge, except upon grounds of plain error.
THUS DONE AND SIGNED in Alexandria, Louisiana, on this 16th day of December 2019.
All Citations
Slip Copy, 2019 WL 8918835
Footnotes
1

Notably the car matched the description of a vehicle from which a shot had
been fired at a subdivision security guard about an hour earlier in another part
of town.

2

Cope was also charged with the attempted first-degree murder of Sonnier and
the attempted first-degree murder of the security guard at the second crime
location. The state severed these counts from the Sergeant Prunty first degree
murder proceedings.

End of

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Document

WestlawNext. © 2021 Thomson Reuters

15 of 15

THOMSON RKUTtiRS
Thomson Reuters iS'rior providing legal advice

7/27/21, 8:46 AM

r

;

!

;
t

I

i

APPENDIX “C”
‘

!
i
i

■

>
.

JJ
't

"■ '

1

\ t ‘5

#S *

\

4

L

https ://nextcorrec^^al.westlaw.com/Document/I246b8fc886elll...

State v. Cope | WestlawNext

WESTLAW
State v. Cope
Supreme Court of Louisiana.

Decembers, 2014

153 So.30 440 (Mem)

2014-1008 (La. 12/8/14) (Approx. 1 page)

153 So.3d440 (Mem)
Supreme Court of Louisiana.
STATE of Louisiana
v.

Christopher Brian COPE.
No. 2014-KO-1008.
Dec. 8, 2014.
Opinion
In re Cope, Christopher Brian;—Defendant; Applying For Writ of Certiorari and/or Review,
Parish of Caddo, 1st Judicial District Court Div. 3, No. 291,674; to the Court of Appeal,
Second Circuit, No. 48,739-KA.
Denied.
All Citations
153 So.3d 440 (Mem), 2014-1008 (La. 12/8/14)

End of

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Document

WestlawNext. © 2021 Thomson Reuters

1 of 1

tiyl) THOMSON PtUTERS
Thomson Reuters i's'-not'providing legal advice

7/27/21, 8:41 AM

;

j

t

i

=

i!

»

I

;
i

!

I

;
!
.

•

APPENDIX “D”

r

;

i
j

t

\
.

i

n <1 * 4

t

V • ] * * '

4\

■
.
.^. ■■•*..

{,
t

4

* ** v’ i

i

i i

’

A

\
,

https://nextcorre^^al.westlaw.com/Document/I391f5518c07811...

State v. Cope | WestlawNext

WESTLAW
State v. Cope
Court of Appeal of Louisiana, Second Circuit.

April 9, 2014

137 So.3d 151

48,739 (La.App. 2 Cir. 4/9/14} (Approx. 25 pages}

137 So.3d 151
Court of Appeal of Louisiana,
Second Circuit.
STATE of Louisiana, Appellee
v.

Christopher Brian COPE, Appellant.
No. 48,739-KA.
April 9, 2014.

Synopsis
Background: Defendant was convicted in the First Judicial District Court, Parish of Caddo,
No. 291,674, Michael A. Pitman, J., of first degree murder of a police officer and was
sentence to life imprisonment at hard labor without benefits. Defendant appealed.

Holdings: The Court of Appeal, Caraway, J., held that:
1 defendant's inculpatory statements to police were voluntary;
2 defendant was not entitled to change of venue based on pretrial publicity; and
3 defendant was not prejudiced by limitations on his presentation of survivability defense.
Affirmed.
West Headnotes (30)
Change View
1

Criminal Law Vs** Voluntariness
At a hearing on a motion to suppress a confession, the state bears the burden of
proving beyond a reasonable doubt the free and voluntary nature of the
confession.

2

Criminal Law vaa’ Custodial interrogation in general
The state must establish that an accused who makes a statement during
custodial interrogation was first advised of his or her Miranda rights. LSA-C.Cr.P.
art. 703.

3

Criminal Law v** Presumptions and Burden of Proof
When claims of police misconduct are raised at a hearing on a motion to
suppress a confession, the State must specifically rebut the allegations.

4

Criminal Law O** Evidence wrongfully obtained
In determining whether a ruling on a motion to suppress is correct, an appellate
court is not limited to evidence adduced at the hearing on the motion, but also
may consider pertinent evidence given at trial.
I
i

5

Criminal Law

Admission, statements, and confessions

A trial judge's ruling on whether a statement is voluntary is given great weight and
will not be disturbed on appeal unless clearly unsupported by the evidence.

6

Criminal Law C*“ Experience with legal system
Low intellect, moderate retardation or diminished mental capacity does not per se
and invariably vitiate capacity to make a free and voluntary statement or a
knowing and intelligent Miranda waiver.
I

lof 17

7/27/21, 8:37 AM

\

State v. Cope | WestlawNext

https://nextcorre^^al.wes tlaw.com/Document/I391f5518c07811...

1 Case that cites this headnote
7

Criminal Law O199

Mental Incapacity

Any mental incapacity is an important factor to consider in deciding the
voluntariness of a confession.
i

1 Case that cites this headnote
I

8

Criminal Law
confession

VWiat constitutes voluntary statement, admission, or

Voluntariness of confession is determined on a case-by-case basis, under a
totality of the circumstances standard.

9

Criminal Law 0=" Force; physical abuse
Criminal Law

Voluntariness

The fact that an officer used force to subdue an arrestee is certainly an element
which the judge should consider on the question of voluntariness of a confession,
but other evidence may convince a judge beyond a reasonable doubt that the
statement was voluntary; that the force used is neither excessive nor designed to
compel a confession are factors appropriately considered in the determination of
voluntariness.

10

Criminal Law C-99 Custodial interrogation in general
Criminal Law C*999 Force; physical abuse
Defendant's inculpatory statements to police were voluntary and admissible in
prosecution for first degree murder of a police officer, notwithstanding that officers
used force against defendant to secure his arrest; recorded statement revealed
defendant as coherent and cooperative, defendant answered all questions
appropriately, defendant was twice informed of his rights and once immediately
prior to his statement, defendant's waiver was calm and logical, defendant was
afforded physical comfort in the two hours in which he waited to be interviewed,
use of force was not excessive, defendant received immediate treatment for his
minor injuries, and officers' emotionally charged statements at scene of arrest
were one-time events of short duration, and were not intended to obtain a
confession.

11

Criminal Law C999 Right of defendant to fair trial in general
Jury O"

Competence for Trial of Cause

The right to an impartial jury and a fair trial is guaranteed to every defendant.
LSA-Const. Art. 1, § 16.

|

12

Criminal Law

Local Prejudice

,

To effect the constitutional guarantee of an impartial jury and fair trial, the law

i

provides for a change of venue when a defendant establishes that he or she will

f
l

be unable to obtain an impartial jury or a fair trial at the place of original venue,
LSA-Const. Art. 1, § 16.

13

Criminal Law C^99 Affidavits and Other Proofs
It is only in exceptional circumstances, such as the presence of a trial
atmosphere that is utterly corrupted by press coverage or that is entirely lacking
in solemnity and sobriety, that prejudice against a defendant may be presumed;
otherwise, it is the defendant's burden to demonstrate actual prejudice.

14

Criminal Law O39 Local Prejudice
To establish actual prejudice based on pretrial publicity, a defendant must prove
more than mere public general knowledge or familiarity with the facts of the case;
he must demonstrate the extent of prejudice in the minds of the community as a
result of such knowledge or exposure to the case.

2 of 17

7/27/21, 8:37 AM

State v. Cope j WestlawNext

https ://nextcorre^^al.westlaw.com/Document/I391f5518c07811...

1 Case that cites this headnote
15

Criminal Law s05=5

Local Prejudice

A defendant is not entitled to a jury entirety ignorant of his case and cannot
prevail on a motion for change of venue simply by showing a general level of
public awareness about the crime; rather, he must show that there exists such
prejudice in the collective mind of the community that a fair trial is impossible.
2 Cases that cite this headnote
16

Criminal Law

Change of venue

Whether a defendant has made the requisite showing of actual prejudice based
on pretrial publicity is a question addressed to the district court's sound discretion,
which will not be disturbed on appeal absent an affirmative showing of error and
abuse of discretion.
1 Case that cites this headnote
17

Criminal Law

Local Prejudice

Factors to be considered in determining whether change of venue is warranted
based on pretrial publicity include: (1) the nature of pretrial publicity and the
degree to which it has circulated in the community; (2) the connection of
government officials with the release of the publicity; (3) the length of time
between the dissemination of the publicity and the trial; (4) the severity and
notoriety of the offense; (5) the area from which the jury is to be drawn; (6) other
events occurring in the community, which either affect or reflect the attitude of the
community or individual jurors toward the defendant; and (7) any factors likely to
affect the candor and veracity of the prospective jurors on voir dire.

18

Criminal Law lQ=>' Local Prejudice
In determining whether to change venue based on pretrial publicity, the focus

i

must extend beyond the prejudices and attitudes of individual venire persons; the

:

defendant must be allowed to show that, even if it would be possible to select a

;

jury whose members were not subject to a challenge for cause, prejudice or
influences exist within the community at large that would affect the jurors'
answers during voir dire or the witnesses' testimony, or that for any other reason,
a fair and impartial trial could not be obtained in that venue.

19

Criminal Law C^ Locai Prejudice
The district court's ultimate determination regarding whether to change venue
based on pretrial publicity must rest on the community's attitude toward the
defendant.

20

Criminal Law

Local Prejudice

'

the primary task of the court is to inquire as to the nature and scope of publicity to
which prospective jurors in a community have been exposed and examine the

!

lengths to which a court must go to impanel a jury that appears to be impartial in

|

order to ascertain whether prejudice existed in the minds of the public, which

|

prevented the defendant from receiving a fair trial.

21

)

In reviewing a denial of request for change in venue based upon pretrial publicity,

1

Criminal Law 0s* Local Prejudice
In performing review of a request to change venue due to pretrial publicity, courts
must distinguish largely factual publicity from that which is invidious or
inflammatory, as the two present real differences in the potential for prejudice.

22

Criminal Law

Particular offenses

Defendant charged with first degree murder of a police officer was not entitled to
change of venue based on pretrial publicity; no direct evidence of the prejudicial

3 of 17

7/27/21, 8:37 AM

State v. Cope | WestlawNext

https ://nextcorre^^ial.westlaw.com/Document/I391f 5518c07811...

or inflammatory nature of the media information was provided, only a few of the
82% of potential jurors who knew about the case expressed more than a vague
knowledge about the facts, 19% of 156 jurors with knowledge of officer's death
were removed for preconceived opinions of defendant’s guilt, no government
officials involved in the matter made any comments or offered any opinion to the
media, trial occurred about two years after the crime, and case did not receive
more notoriety than any other capital murder case, and number of individuals in
the parish was large.

23

Criminal Law O5* Right of Accused to Confront Witnesses
The Sixth Amendment right to confrontation of witnesses is secured for
defendants in state as well as federal criminal proceedings. U.S.C.A.
Const.Amend. 6.

24

Criminal Law Vs*

Right of Accused to Confront Wtnesses

Criminal Law 0s* Cross-examination and impeachment
“Confrontation,” for purposes of constitutional confrontation clauses, means more
than being allowed to confront the witnesses physically; the main and essential
purpose of confrontation is to secure for the opponent the opportunity of crossexamination, which is the principal means by which believability and truthfulness
of testimony are tested. U.S.C.A. Const.Amend. 6; LSA-Const. Art. 1, § 16.

25

Criminal Law 0s® Reception of evidence
Confrontation errors are subject to a harmless error analysis; the correct inquiry is
whether, assuming that the damaging potential of the cross-examination were

i

fully realized, a reviewing court might nonetheless say that the error was
harmless beyond a reasonable doubt. U.S.C.A. Const.Amend. 6; LSA-Const. Art.
1, § 16.
4 Cases that cite this headnote
26

Criminal Law Vs* Reception of evidence
Whether a confrontation error is harmless in a particular case depends upon a
host of factors, all readily accessible to reviewing courts; these factors include the
importance of the witness's testimony in the prosecution's case, whether the
testimony was cumulative, the presence or absence of evidence corroborating or
contradicting the testimony of the witness on material points, the extent of crossexamination otherwise permitted, and, of course, the overall strength of the
prosecution's case. U.S.C.A. Con$t.Amend. 6; LSA-Const. Art. 1, § 16.
3 Cases that cite this headnote
l

27

Criminal Law
Necessity and scope of proof
A criminal defendant has the constitutional right to present a defense. U.S.C.A.
Const.Amend. 6; LSA-Const. Art. 1, § 16.
1 Case that cites this headnote

28

Criminal Law O33 Reception of evidence
A criminal defendant’s constitutional right to present a defense is subject to a

i

harmless error analysis. U.S.C.A. Const.Amend. 6; LSA-Const. Art. 1, § 16.
4 Cases that cite this headnote
29

Criminal Law O53- Opinion evidence

j

Defendant charged with first degree murder of a police officer was not prejudiced
by trial court’s limitation on defendant's presentation of expert testimony

j

regarding survivability; defendant was allowed to present unlimited evidence
relating to issue of survivability, and the excluded opinion testimony merely
cumulated testimony already received by the jury.

4 of 17

|

7/27/21, 8:37 AM

https://nextcorre^^al.wes tlaw.com/Document/I391f5518c07811...

State v. Cope | WestlawNext

30

Criminal Law

Books and entries therein

Criminal Law ‘D53 Cumulative evidence in general
Defendant charged with first degree murder of a police officer was not prejudiced
by trial court's refusal to publish to jury a 449-page first responder manual, which
had been offered by defendant as support for survivability defense; defense was
ultimately allowed to introduce the manual into evidence, extensive evidence
relating to the actions of the first responders, appropriate treatment and patient
assessment was presented to the jury through medical testimony, and relevant
portions of the manual alluded to by defense counsel in argument would have
been nothing more than cumulative evidence.

Attorneys and Law Firms
*155 Douglas Lee Harvilie, Louisiana Appellate Project, for Appellant.
Charles R. Scott II, District Attorney, Dale G. Cox, Brady D. O'Callaghan, Suzanne M.
Owen, Assistant District Attorneys, for Appellee.
Before BROWN, WILLIAMS and CARAWAY, JJ.

Opinion
CARAWAY, J.
”1 On October 30, 2012, a unanimous jury found Christopher Brian Cope guilty of one
count of first degree murder of a police officer in violation of La. R.S. 14:30. After the jury
deadlocked on the sentencing portion of the proceedings, the court imposed a life sentence
at hard labor without benefits. Cope appeals his conviction raising three trial errors. We
affirm.
Facts
While on duty in the early morning hours of October 24, 2010, Shreveport Police Sergeant
Timothy Prunty made a routine stop at a west Shreveport convenience store to check on the
employees who worked the night shift. While there, he spoke with his friend and shift cierfc,
Carey Sonnier. At approximately 3:24 a.m., Sergeant Prunty and Sonnier stood outside the
store talking. Sonnier leaned on a grey pole located in front of Sergeant Prunty’s vehicle,
and Sergeant Prunty leaned on the hood of his car. Shortly thereafter, the two saw the
approach of a red Camaro with very loud exhaust pipes. The driver pulled into the parking
lot and stopped three spaces to the left (west) and slightly behind Sergeant Prunty's car.
Thinking she had a customer, Sonnier moved to go back into the store. As she did so,
Sonnier heard several popping sounds, saw the flame from a gun and felt Sergeant Painty
shove her as he told her to run. Sonnier ran behind a dumpster and hid behind a fence. She
saw the shooter spread his feet and hold the handgun with both hands for stability. Sonnier
thought that the shooter was shooting at her as well as Sergeant Prunty. An eyewitness who
**2 saw the events from an apartment across the street corroborated Sonnier’s information
about the car and the shooter.
Sergeant Prunty returned fire, shattering the glass T-top of the vehicle. The evidence
showed that the driver fired 14 rounds from a .40 caliber Smith and Wesson gun and
Sergeant Prunty fired 11 times from his Glock .22 police-issued pistol.
From behind the fence Sonnier saw the driver pull away slowly and calmly. She ran back to
the front of the building and saw a police car driven by Corporal Naomi Johnson
approaching. Johnson was in the area when she heard gunshots and dispatched a shotsfired call. She traveled in the direction of the shots and noticed Sonnier flagging her down.
Sonnier directed Johnson to Sergeant Prunty; she noticed blood around his leg area.
Johnson made the call for help at approximately 3:33 a.m. From information given to her by
Sonnier, Johnson was able to give a description of the driver and his vehicle as well as
information that he was traveling west from the convenience store.
*156 In the meantime, Shreveport Police Officer Lacey Durham who was trained as an
emergency medical technician, overheard Johnson's call and traveled to the scene at
approximately 3:37 a.m. She recognized Sergeant Prunty and attempted treatment. The
Shreveport Fire Department arrived at the store at approximately 3:39 a.m. Lifesaving
measures were attempted and Sergeant Prunty was transported to a local hospital where he

5 of 17

7/27/21, 8:37 AM

State v. Cope | WestlawNext

https ://nextcorre^pal.westlaw.com/Document/I391f5518c07811...

later succumbed to his injuries. The autopsy indicated that he received five gunshot wounds
to both legs and feet; the leg wounds were inflicted from behind. Sergeant Prunty’s cause of
death was loss of blood, which resulted "3 largely from a laceration of the popliteal artery in
his left upper leg; the bullet also fractured his distal femur and kneecap. A second wound to
his upper left leg shattered his left femur and caused blood loss.
After the description of the vehicle and driver was broadcast, several Shreveport police
patrol officers began looking for a red Camaro driven by a white, heavyset male with a
goatee.1 Shortly thereafter, several officers saw the vehicle and pursued the driver for eight
to ten minutes before the vehicle stopped in a hotel parking lot. Glass particles fell from the
Camaro's T-top throughout the chase.
Upon stopping the vehicle at 3:51 a.m., the driver opened his car door, held up a handgun,
ejected its magazine and a live cartridge and dropped the weapon onto the pavement before
standing up from the car. Upon being ordered to drop to the ground, the driver slowly
complied and police eventually handcuffed him. When the driver would not yield his right
arm, officers utilized distraction strikes to his hands, back, rib and shoulders. The suspect
was advised of his rights and placed in a patrol vehicle. He informed a Shreveport Police
Detective that his name was Christopher Cope. Because Cope was actively bleeding from
abrasions above the eye and on his cheek, he was provided treatment from the Shreveport
Fire Department.
Cope was transported to the Shreveport Police Department, Violent Crimes Bureau, at
approximately 5:00 a.m. He was kept separate from other witnesses and made comfortable.
His transport officers stayed with him in "4 the room for approximately 30 minutes to an
hour, and Cope made no statements to them other than asking how "he” was.
Cope was interviewed at 7:00 a.m., after being read his rights a second time. In a
statement, Cope admitted to being the shooter, but suggested that he wanted the police
officer to kill him. Cope indicated that he drank six or seven beers earlier in the evening but
was not drunk. He had watched fights at a friend's house, hung out with a group of friends
who had gathered on a local roadway, and visited a girlfriend. It was after he left the friend's
house that he shot at the security guard house of a local subdivision across town with his
Smith and Wesson .40 caliber gun. He then stopped at the convenience store intending to
get a beer. He claimed that he did not make enough money to support himself, was still
living at home, and was in a “funk.” He stated that his mind “went blank” and he “done what
[he] done." He had “no reasonable explanation" for it other than his "stupidity.”
Sonnier was able to identify Cope as the shooter in a photographic lineup. On December 2,
2010, a grand jury indicted Cope for the first degree murder of Sergeant '157 Prunty.2 Trial
began on October 25, 2012. Cope was convicted as charged and sentenced to life
imprisonment. He has appealed his conviction.

Discussion
Motion to Suppress
"5 In his first assignment of error Cope argues that the trial court erred in denying a motion
to suppress his confession, which was the product of fear, duress and intimidation. On June
16, 2011, Cope asserted these grounds in a pretrial motion to suppress his confession,
which was denied. On appeal, Cope contends that his vulnerability was compounded by
threats and abuse he experienced during his arrest. Specifically, he argues that he was
kicked and punched by officers as he was apprehended. He also contends that the officer
(Allgrunn) who read him his rights called for violence against him and that the transporting
officer (Hodges) had struck him during his arrest. Those actions allegedly would have
caused ‘a reasonable person in Mr. Cope's shoes to believe that he had to confess.” Cope
also argues that his inability to obtain Shreveport Police Department regulations and
guidelines dealing with distraction strikes or the identity of other officers who administered
distraction strikes to him, prevented him from developing facts underlying the voluntariness
of the confession.
Before what purports to be a confession can be introduced into evidence, it must be
affirmatively shown that it was free and voluntary and not made under the influence of fear,
duress, intimidation, menaces, threats, inducements or promises. La. R.S. 15:451; State /.
Holmes, 06-2968 (La. 12/2/08), 5 So.3d 42, cert, denied, 558 U.S. 932, 130 S.Ct. 70, 175
L.Ed.2d 233 (2009). No person under arrest shall be subjected to any treatment designed by

6 of 17

7/27/21, 8:37 AM

State v. Cope | WestlawNext

https://nextcorrec^ial.westlaw.com/Document/I391f5518c07811...

effect on body or mind to compel a confession of crime. La. R.S. 15:452.
Louisiana Code of Criminal Procedure Article 703 provides, in part:
B. A defendant may move on any constitutional ground to suppress a ’*6 confession or
statement of any nature made by the defendant.

D. On the trial of a motion to suppress filed under the provisions of this Article, the burden
of proof is on the defendant to prove the ground of his motion, except that the state shall
have the burden of proving the admissibility of a purported confession or statement by the
defendant or of any evidence seized without a warrant.

G. When a ruling on a motion to suppress a confession or statement is adverse to the
defendant, the state shall be required, prior to presenting the confession or statement to
the jury, to introduce evidence concerning the circumstances surrounding the making of
the confession or statement for the purpose of enabling the jury to determine the weight to
be given the confession or statement.
A ruling made adversely to the defendant prior to trial upon a motion to suppress a
confession or statement does not prevent the defendant from introducing evidence during
the trial concerning the circumstances surrounding the making of the confession or
statement for the purpose of enabling the jury to determine the weight to be given the
confession or statement.
1
*158 At a hearing on a motion to suppress a confession, the state bears the burden of
proving beyond a reasonable doubt the free and voluntary nature of the confession. State v.
Hills, 354 So.2d 186 (La.1977); State v. Callier, 39,650 (La.App.2d Cir.7/27/05), 909 So.2d
23, writ denied, 06-0308 (La.9/1/06), 936 So.2d 196; State v. Collier, 34,774 (La.App.2d
Cir.6/20/01), 792 So.2d 793, writ denied, 01-2199 (La.6/7/02), 817 So.2d 1142.
2

3

The state must also establish that an accused who makes a statement during

custodial interrogation was first advised of his or her Miranda rights.3 Holmes, supra;
Callier, supra. When claims of police misconduct are raised, the State must specifically
rebut the allegations. Holmes, supra.
4
5 In determining whether a ruling on a motion to suppress is correct, an **7
appellate court is not limited to evidence adduced at the hearing on the motion, but also may
consider pertinent evidence given at trial. State v. White, 39,681 (La.App.2d Cir.5/11/05),
903 So.2d 580; State v. Daniels, 614 So.2d 97 (La.App. 2d Cir.1993), writ denied, 619
So.2d 573 (La. 1993). A trial judge's ruling on whether a statement is voluntary is given great
weight and will not be disturbed on appeal unless clearly unsupported by the evidence.
State v. Vigne, 01-2940 (La.6/21/02), 820 So.2d 533.
6
7
8 Low intellect, moderate retardation or diminished mental capacity does
not per se and invariably vitiate capacity to make a free and voluntary statement or a
knowing and intelligent Miranda waiver. Holmes, supra; State v. Manning, 03-1982
(La.10/19/04), 885 So.2d 1044, cert, denied, 544 U.S. 967, 125 S.Ct. 1745, 161 L.Ed.2d612
(2005); State v. Green, 94-0887 (La.5/22/95), 655 So.2d 272. Any mental incapacity is an
important factor to consider in deciding the voluntariness of a confession. Sfafe v. King,
41,084 (La.App.2d Cir.6/30/06), 935 So.2d815, writ denied, 06-1803 (La.2/16/07), 949
So.2d 411. Voluntariness is determined on a case-by-case basis, under a totality of the
circumstances standard. Manning, supra; King, supra.
9

The fact that an officer used force to subdue an arrestee is certainly an element which

the judge should consider on the question of voluntariness. However, other evidence may
convince a judge beyond a reasonable doubt that the statement was voluntary. State </.
White, 329 So.2d 738 (La. 1976). That the force used is neither excessive nor designed to
compel a confession *’8 are factors appropriately considered in the determination of
voluntariness, id.
10 At the hearing on the motion to suppress, the defense examined five of the
Shreveport Police officers who secured Cope and placed him in custody. Each of these
officers also testified at trial.

7 of 17

7/27/21, 8:37 AM

State v. Cope | WestlawNext

https://nextcorrectional.westlaw.com/Document/I391f5518c07811...

Officer Jason Allgrunn testified he was one of the six or seven officers who converged upon
Cope when he exited his car. Allgrunn read Cope his rights at a distance of approximately
six inches from his left ear as he was lying face down. Cope indicated he understood his
rights by nodding. Cope softly told Allgrunn that he was not resisting arrest. Allgrunn did not
smell alcohol on Cope's breath.
Allgrunn stated that he never threatened Cope, did not promise anything to him or strike his
person. He saw no other officer strike Cope and did not hear anyone *159 threaten him or
promise him anything. Allgrunn admitted that he made two statements, which can be heard
on his mobile video system ("MVS"). Those included his comments that “I wish you would
have pointed that at us," and “Give this guy some love.”
Sergeant Wiley Lindsey testified that once Cope was on the ground, numerous officers
assisted in taking him down. He indicated that "they were trying to place his hands behind
his back, and he kept resisting, wouldn't put both of them behind his back." Lindsey testified
that “distraction strikes" were used in an attempt to get Cope's hands behind his back for
handcuffing. He stated the strikes were performed with fist blows upon Cope's arms, leg,
thigh, and sides until he gave up his hands.
"9 Lindsey's MVS was played, and he narrated it. He acknowledged hearing vulgarity on
the tape at the time of Cope's arrest, but did not know who made the statements. He stated
that Cope did not respond in any way to the language. He stated that after Cope's arrest,
he was treated by the Shreveport Fire Department for abrasions on his face and arms.
Lindsey described the abrasions as being from the pavement because Cope was face
down.
Exhibit S-1 included the MVS evidence from both Sergeant Lindsey's and Officer Allgrunn's
vehicles. The exhibit also contained the MVS evidence from Corporals Tabor's and Hodges'
vehicles, two officers who assisted in Cope's arrest but did not testify at the hearing.
Notably Sergeant Tabor's MVS was the only one to depict the details of Cope's arrest. It
showed that upon the officers' verbal commands to Cope to lie on the ground, he slowly
complied, lying face down on the pavement. Thereafter, 9 to 11 officers converged upon
Cope. The video shows the securing officers having difficulty in handcuffing Cope's right
hand. In an effort to secure the hand, Officer Hodges administered one or two strikes to his
back, and one unnamed officer kicked him once near his upper body. Another officer
administered several fist strikes near his shoulders. Wthin seconds thereafter, Cope's hand
is secured, and he is handcuffed at approximately 3:32 a.m.
All officers then removed themselves from Cope. He was turned on his back and searched.
He was placed face down again where he remained until 4:11 a.m., when he was placed in
Officer Hodges' vehicle. In this interim period, officers are seen standing near Cope.
Notably, one officer **10 can been seen leaning over Cope and yelling at him. A second
officer leaned down near Cope's ear for a few seconds as if he were whispering to him,
although nothing can be heard on the video.
A photograph of Cope was taken at the police station after his arrest. It shows minor
abrasions around Cope's right eye and cheek.
Lieutenant Jimmy Muller testified that in his position as the Detective Bureau Executive
Officer, he assigned tasks for the detectives servicing the case. He instructed Officers
Hodges and Minor, who transported Cope to the station, to maintain Cope as a suspect
separate from any other witnesses. Cope was taken to the property crimes unit and placed
in an empty office. Hodges sat with Cope in the room with Minor outside the door. Muller
asked Cope if he wanted him to call his father. Cope declined the offer but stated that he
was thirsty. He was provided water and allowed to take his handcuffs off while waiting to be
interviewed. Restroom facilities were provided for Cope. Muller did not ask Cope anything
or threaten or promise anything to him. *760 Cope appeared lucid to Muller. He stated that
Cope did not appear to be intoxicated or under the influence of anything.
Sergeant Jody Jones testified that he was in charge of the day shift homicide unit and was
on call the weekend of this event. Jones and Detective Lane Smith interviewed Cope,
having waited until other witnesses had first been interviewed.
Cope was interviewed at 7:00 a.m. No pre-interview was conducted. In fact, Jones had no
contact with Cope prior to the formal interview. An audio recording of the interview was

8 of 17

7/27/21, 8:37 AM

State v. Cope | WestlawNext

https://nextcorrectlonal.westlaw.com/Document/I391f5518c07811...

placed in evidence. Jones testified that videotape recorders were never used in his division.
”ff Jones testified that Cope was read his rights a second time prior to giving a statement.
Cope was not upset or emotional. Jones identified a copy of the waiver form signed by
Cope. Jones recalled that Cope understood what was being shown to him. He did not
appear to be intoxicated, was offered no inducement to sign the document, was not
promised any benefit for giving a statement, and was not threatened in any way. Cope was
not tested for intoxication. Cope signed the form and verbally acknowledged that he was
willing to waive his rights.
Detective Lane Smith had actually spoken to Cope before he was taken to the station and
had assigned Officer Hodges and Minor to protect Cope from any hostility of other officers.
He confirmed Jones’s testimony concerning Cope's condition during his statement.
Officer Chris Hodges, who testified at trial, was also present as Cope exited his car and was
arrested. He issued commands to Cope to get out of the car. Cope complied. Hodges
proceeded to Cope and attempted to handcuff him. He described Cope as "tense." It was
Hodges who "delivered a couple of strikes to his back to gain compliance” and was then
able to get him handcuffed. Hodges recalled that it was Cope’s right arm that was not
yielding, “up towards the front of his chest area.” He was concerned that Cope had a
weapon. When questioned about the video of Cope's arrest, Hodges admitted that other
officers delivered strikes to get Cope into handcuffs.
Hodges explained that a distraction blow is a closed fist strike used to gain compliance,
which can be done to the back or ribs in an effort to pull the arm out. Hodges did use his
fists and inflicted the blows “in the **12 shoulder area of [Cope's] back.” After Cope was
handcuffed, Hodges rolled him over to his back and conducted a pat-down search for
weapons. Hodges did not recall that Cope said anything.
Hodges also testified that at the station he never questioned Cope during the time that he
guarded him. Cope never asked for food or for a lawyer or to speak to relatives or to friends.
Hodges described Cope as being without emotion. He recalled that Cope asked how "he”
was, referring to Sergeant Prunty. Hodges told Cope that he did not know, although he knew
the officer was deceased.
Officer Jimmie Minor was called at trial by the defense. Minor first became involved with
Cope as he was taken into custody. He stayed with Cope on the scene and then followed
Officer Hodges to the Shreveport Police Department. The room where Cope was guarded
was fairly deserted and no other officers came into contact with him. Minor was instructed to
stay with Cope until detectives arrived to interview him. He recalled that his time with Cope
spanned nearly two hours. Minor was instructed to keep Cope comfortable. He testified that
he was not abusive toward Cope, who was quiet and stared at the ground most of the time.
Minor recalled *161 that Cope asked him “several times” how the Sergeant was doing.
As a DWl enforcement officer, Minor saw nothing in Cope to cause him to request a breath
test. Minor stated that Cope was able to walk to the bathroom on his own, did not request to
speak to a lawyer or to his father or any family members or friends. He never used physical
force against Cope or threaten him in any way. He and Officer Hodges never promised him
anything. Minor recalled that Cope's eyes were red and moist. Minor saw ”13 Cope cry on
one occasion during his custody, but he never said he was sorry for what he did.
The record before us does not demonstrate error in the trial court's determination that
Cope's statement was free and voluntary. Eight officers testified about the circumstances
leading to Cope's statement. His recorded statement reveals a coherent, cooperative
defendant who responded appropriately to the interrogation. He answered all questions
appropriately despite his claims of being “particularly vulnerable” as a 24-year-old dropout.
His awareness of his situation is shown by his inquiries about the condition of Sergeant
Prunty. It is undisputed that Cope was informed of his rights on two occasions, once
immediately prior to his statement. His waiver of those rights was likewise clear, calm and
logical. Significantly, Cope was afforded physical comfort in the two hours in which he
waited to be interviewed. After the initial scuffle with the officers, his contact with police
officers was limited to the two who guarded him and the two who interviewed him.
The record does not support Cope's claim that the “threats’ and “abuse’ he received at the
arrest scene and during transport defeated the state's burden of proof. Although the video
evidence of Cope's arrest shows that officers struck Cope several times, it also

9 of 17

7/27/21, 8:37 AM

State v. Cope j WestlawNext

https://nextcorrectional.westlaw.com/Document/1391f5518c07811...

corroborates the officers' testimony that the strikes were used during their struggle to obtain
Cope's right hand. The distraction strikes, including the inappropriate kick by one officer,
occurred for only seconds, were not excessive and accomplished **14 their purpose
quickly.4 The only noticeable physical injuries Cope received as the result of his arrest were
minor abrasions to his face, for which he received immediate treatment.
Likewise, Hodges' actions during arrest were legitimate methods of subduing Cope, and the
video evidence of Cope's transport reveals no evidence of actual or perceived coercion by
Hodges. In fact, that evidence shows that neither Cope nor Hodges made any statements
during travel. Ultimately, Hodges never interviewed Cope and answered only one question.
The statements made by officers at the arrest scene, while emotionally charged, were not
shown to have been intended to obtain a confession. The video shows that Cope had
limited close-up exposure to police at the arrest scene and the statements made to him
were one-time events of short duration.
From this evidence it was not unreasonable for the trial court to conclude that statements
made by the officers reflected their anger at Cope for shooting a fellow officer rather than
coercive efforts to obtain a statement of guilt and that the force used by the officers was
designed to subdue Cope and not to compel a confession. Ultimately, with Cope's
confession being given some two hours after any of these *162 events, we find no error in
the trial court's determination that statements made to Cope at his arrest did not render his
statement involuntary. For these reasons, this assignment of error has no merit.
**15 Venue
Cope next argues that the trial court erred in denying his motion for change of venue based
upon the nature and extent of pretrial publicity. He asserts that such publicity affected the
jury venire to the extent that Cope could not obtain a fair and impartial jury.
In pretrial proceedings, the State stipulated to Its release to the media of video from one of
the police vehicles documenting Cope's arrest. Subsequently, Cope filed a Motion for
Change of Venue arguing that the nature and extent of pretrial publicity, which was
‘encouraged by the direct involvement of the District Attorney's Office," was so pervasive as
to deprive him of a fair and impartial jury. With the agreement of the defense, the Court
deferred ruling on the motion until voir dire of potential jurors. After a jury of 12 was selected
and during voir dire for alternates, after each had been examined and challenged on
publicity, the defense re-urged its venue challenge.
The defense argued that Cope could not have a fair trial due to the percentage of jurors who
indicated exposure to the case and the inflammatory publicity, including the details of the
arrest and broadcast of Cope's photograph. The court denied the defense’s motion pointing
out that it had "painstakingly, individually questioned each and every prospective juror on
this issue."
La.C.Cr.P. art. 622 states:

A change of venue shall be granted when the applicant proves that by
reason of prejudice existing in the public mind or because of undue
influence, or that for any other reason, a fair and impartial trial cannot be
obtained in the parish where the prosecution is pending. In deciding whether
to grant a change *‘16 of venue the court shall consider whether the
prejudice, the influence, or the other reasons are such that they will affect the
answers of jurors on the voir dire examination or the testimony of witnesses
at the trial.

11

12

The right to an impartial jury and a fair trial is guaranteed to every defendant.

See La. Const, art. I, § 16; Sfafe v. Magee, 11-0574 (La.9/28/12), 103 So.3d 285, cert,
134 S.Ct. 56, 187 L.Ed.2d 49 (2013); Sfafe v. Sparks, 88-0017
denied, — U.S.
{La.5/11/11), 68 So.3d 435, cert, denied,-----U.S.

132 S.Ct. 1794, 182 L.Ed.2d 621

{2012). To effect this guarantee, the law provides for a change of venue when a defendant
establishes that he or she will be unable to obtain an impartial jury or a fair trial at the place
of original venue. Id.
13

10 of 17

It is only in exceptional circumstances, such as the presence of a trial atmosphere

7/27/21, 8:37 AM

State v. Cope | WestlawNext

https://nextcorrec^^al.westlaw.com/Document/I391f5518c07811...

that is utterly corrupted by press coverage or that is entirely lacking in solemnity and
sobriety, that prejudice against a defendant may be presumed. Magee, supra. Otherwise, it
is the defendant's burden to demonstrate actual prejudice. Id.
14

15

16

To meet this burden, a defendant must prove more than mere public

general knowledge or familiarity with the facts of the case. He must demonstrate the extent
of prejudice in the minds of the community as a result of such knowledge or exposure to the
case. Magee, supra; State v. Clark, 02-1463 (La.6/27/03), 851 So.2d 1055; cert, denied,
540 U.S. 1190, 124 S.Ct. 1433, 158 L.Ed.2d 98 (2004); State v. Frank, 99-0553
(La. 1/17/01), 803 So.2d 1. A defendant is not entitled to a *163 jury entirely ignorant of his
case and cannot prevail on a motion for change of venue simply by showing a general level
of public awareness about the crime; rather, he must **17 show that there exists such
prejudice in the collective mind of the community that a fair trial is impossible. Magee, supra;
Clark, supra. Whether a defendant has made the requisite showing of actual prejudice is a
question addressed to the district court’s sound discretion, which will not be disturbed on
appeal absent an affirmative showing of error and abuse of discretion. Magee, supra;
Sparks, supra.
17

In State v. Bell, 315 So.2d 307 (La. 1975), the Louisiana Supreme Court enumerated

several factors to be considered in the change of venue determination. These factors
include: (1) the nature of pretrial publicity and the degree to which it has circulated in the
community; (2) the connection of government officials with the release of the publicity; (3)
the length of time between the dissemination of the publicity and the trial; (4) the severity
and notoriety of the offense; (5) the area from which the jury is to be drawn; (6) other events
occurring in the community, which either affect or reflect the attitude of the community or
individual jurors toward the defendant; and (7) any factors likely to affect the candor and
veracity of the prospective jurors on voir dire.
18

19

In determining whether to change venue, the focus must extend beyond the

prejudices and attitudes of individual venire persons. The defendant must be allowed to
show that, even if it would be possible to select a jury whose members were not subject to a
challenge for cause, prejudice or influences exist within the community at large that would
affect the jurors' answers during voir dire or the witnesses' testimony, or that for any other
reason, a fair and impartial trial could not be obtained in that venue. Magee, supra; Clark,
supra; Bell, supra. The district court’s *'18 ultimate determination must rest on the
community's attitude toward the defendant. Magee, supra; Clark, supra.
20

In reviewing a denial of change in venue, the primary task of the court is to inquire as

to the nature and scope of publicity to which prospective jurors in a community have been
exposed and examine the lengths to which a court must go to impanel a jury that appears to
be impartial in order to ascertain whether prejudice existed in the minds of the public, which
prevented the defendant from receiving a fair trial. Magee, supra; Clark, supra.
21

In performing this review, courts must distinguish largely factual publicity from that

which is invidious or inflammatory, as the two present real differences in the potential for
prejudice. Id. While ultimately there is no bright line test for ascertaining the degree of
prejudice existing in the collective mind of the community, the seven Bell factors help
facilitate the inquiry. Magee, supra. In addition, courts have examined the number of jurors
excused for cause for having a fixed opinion as another gauge of whether prejudice exists in
the public mind. Id.
22

Before consideration of the responses of potential jurors in the actual voir dire

examination in this case. Cope argues that the Caddo Parish jury pool was tainted by news
reports showing an MVS video of his arrest and his arrest photograph that were given to a
local television station by the District Attorney's office. He contends that the death of Prunty
was “well known” in the community and "left little doubt” in the minds of the public about
Cope's guilt.
"19 Nevertheless, Cope made no showing regarding when or if the MVS video was *164
run on the news by a station. No tapes of local newscasts were placed in evidence. No print
or electronic media accounts were offered. In sum, no substantial body of pretrial publicity
was shown to the court, particularly, no direct evidence of the prejudicial or inflammatory
nature of the media information.
This lack of excessive and inflammatory publicity contrasts to other cases in the

11 Of 17

7/27/21, 8:37 AM

State v. Cope | WestlawNext

https ://nextcorrect^al.wesdaw.com/Document/I391f5518c07811...

jurisprudence examining the issue of venue change. See, for example, Magee, supra, which
included extensive evidence of media coverage including 200 pages of newspaper articles,
online comments from the public, transcripts of television coverage of the crime and multiple
DVDs containing recordings from major local media outlets; State v. Lee, 05-2098
(La.1/16/08), 976 So.2d 109, cert, denied, 555 U.S. 824, 129 S.Ct. 143, 172 L.Ed.2d 39
(2008), in which the defense introduced "thousands of print and media stories” about the
case; Manning, supra, where 14 newspaper articles were submitted concerning the crime;
and Clark, supra, in which numerous newspaper articles relating to the case and a number
of transcripts from a local television station were introduced.
Further, we have reviewed the information obtained by the actual examination of prospective
jurors. The trial court interviewed 190 potential jurors. Of those 190,156(82%) indicated that
they had some exposure (most with vague factual recollections of the events) to the case;
34(18%) individuals knew nothing about the case. The court individually interviewed the 156
potential jurors.
'*20 Of the 156 jurors with knowledge of the death of the officer, 36(19%) were removed for
preconceived opinions of the defendant's guilt. The defense challenged two additional jurors
for such pretrial opinions of guilt, which were denied by the court. An additional 18 potential
jurors were challenged for cause due to impartiality because of relationships to or with law
enforcement (8), Prunty (5) or Cope (5). Ultimately, of the 15 jurors and alternates chosen,
7(47%) had no knowledge of the case. The remaining 8 jurors who served on the case with
some knowledge of the murder assured the court that they would be able to decide the case
solely on the evidence; one of those was an alternate juror.
Importantly, of the 82% of potential jurors who knew about the case, only a few expressed
more than a vague knowledge about the facts, which they had gleaned from the news or
from conversations. None mentioned seeing a video on the news. Only two recalled seeing
Cope’s photograph. These facts fail to demonstrate any deep-seated pattern of prejudice
against the defendant. Rather, all that was shown is a general level of public awareness
about the crime. V\frien compared with other cases in which the Supreme Court has found
no abuse of discretion in the denial of a venue change, this percentage falls within the range
of acceptable general public awareness. See for example, Magee, supra, in which 43% of
prospective jurors noted their familiarity with the facts of a case; Lee, supra, in which 98.4%
were vaguely familiar with the case through media or conversations; Clark, supra, in which
62.9% claimed some exposure to the case; Frank, supra, where 97% of the venire had been
exposed to some publicity; State v. Hoffman, 98-3118 (La.4/11/00), 768 So.2d 542, cert,
denied, "21 531 U.S. 946, 121 S.Ct. 345, 148 L.Ed.2d 277 (2000), in which 80% of the
prospective jurors had awareness of the case before trial; State v. Connolly, 96-1680
(La.7/1/97), 700 So.2d 810, in which 86.33% of potential jurors possessed a vague
recollection of the facts.
*165 Likewise, the 19% of jurors with fixed opinions is inadequate to demonstrate reversible
prejudice in the public mind. All of the prospective jurors who expressed a pretrial opinion of
Cope's guilt based upon pretrial information of the crime were released for cause.
Moreover, such percentage also falls within ranges sanctioned by the courts as acceptable.
See, Murphy v. Florida, 421 U.S. 794, 95 S.Ct. 2031, 44 L.Ed.2d 589(1975), in which 26%
with pretrial guilt opinions held not to show prejudice; Sparks, supra, where 12.5% fixed
opinion was insufficient to demonstrate prejudice; Lee, supra, in which 32% of potential
jurors excused for exposure to case or fixed opinions found insufficient to show public
prejudice; Frank, supra, in which 15% of jurors excused due to an inability to put aside
preconceived disposition or outside information found insufficient to show prejudice.
Compare Irvin v. Dowd, 366 U.S. 717, 81 S.Ct. 1639, 6 L.Ed.2d751 (1961), in which 62%
excused for fixed opinion indicated that impartial jurors were hard to find.
After applying the first Bell factor to these facts, we cannot say that the defense has shown
that the events in question fostered such emotionally charged media coverage as to
prejudice Cope's right to a fair trial.
Additionally, we do not find persuasive Cope's arguments regarding the second Bell factor,
the connection of government officials with publicity. "22 A review of the jurisprudence
shows that this factor relates to statements made by government officials connected to the
case which are harmful or inflammatory and incite prejudice in the minds of the public.
In this case, the District Attorney's office stipulated that it had released the subject video to a

12 of 17

7/27/21, 8:37 AM

State v. Cope | WestlawNext

https://nextcorrectionaI.westlaw.com/Document/I391f5518c07811...

local television station. However, on the hearing for change of venue, the defense presented
no evidence that any government official involved in the matter, including any individual from
the District Attorney's office, made any comments or offered any opinion about the case to
the media. Thus, Cope's argument that the actions of the District Attorney’s office created
community-wide prejudice against him such that he could not receive a fair trial is not
supported by the evidence. Compare Magee, supra, where comments by both the district
attorney and sheriff regarding the gruesomeness of the crime were reviewed.
The remaining five Bell factors also afford Cope no relief and are not seriously raised in
argument. The trial in this matter occurred about two years after the crime. While the murder
of a police officer would necessarily receive media attention, the defense has not shown that
the case received more notoriety than any other capital murder case. Cope has also failed
to demonstrate that the area from which the jury was drawn showed overriding prejudice in
the community that prevented him from receiving a fair trial. According to the 2010 Census,
Caddo Parish has a population of 254,969 people. From this large number of individuals, a
qualified and fair jury was possible.
Given the broad discretion granted to trial courts in these matters, we cannot say that Cope
has established an abuse of discretion in the denial of **23 his request for change of venue.
Overall, he has failed to demonstrate that prejudice against him existed in the collective
mind of the community such that a fair trial was not possible. For these reasons, this
assignment of error lacks merit.
Survivability Defense
In his final assignment of error, Cope argues that the trial court violated his constitutional
rights to confrontation and cross-examination of witnesses, thereby prohibiting his
presentation of a survivability *166 defense. Specifically, Cope complains that the State "at
least twice” curtailed his right to confront and cross-examine witnesses, including the
coroner and Officer Hodges. He contends that the court limited his cross-examination of the
coroner first when he was prevented from questioning the coroner on the issue of
survivability, and second when the court denied his request to introduce into evidence the
City of Shreveport's medical training manual, First Responder, Your First Response in
Emergency Care (“First Responder Manual"), finding that survivability was not a relevant
issue.
Testimony showed that Officer Lacey Durham, the first responder at the shooting, found
Sergeant Prunty with fixed, dilated eyes and an agonal respiration, which she recognized as
a death breath. She knew from these symptoms that his heart had stopped. She never saw
any signs of life from him and believed that he was dead. Durham testified that she knew
that she “needed to control a bleed,” so she began looking for wounds.
She saw what her training showed her to be an entrance wound near the “right upper side"
of his thigh near the femoral artery, so she “started there.” She focused on this wound, which
she knew to be serious, and she **24 believed that it was this wound producing the blood.
She explained that the femoral artery is the second largest artery in the body and if
punctured can cause a person to “bleed out pretty fast.' Durham knew that she needed to
“squeeze” the artery off to hold the bleed. She understood that a tourniquet would not be
practical. She exposed the wound and “realized how much blood loss there was," although
she never saw blood actively coming out of the wound. She then checked the rear of
Prunty’s thigh, hoping that the back wound would be larger than the front and that she might
“find a pulsation there to squeeze off.” She searched for "something that [she] could hold"
until the fire department got there to administer fluids.
Paramedics responding to the scene testified that they saw no signs of life in Sergeant
Prunty.
The Caddo Parish Coroner, Dr. Todd Thoma, testified at trial and was qualified as an expert
in medicine, emergency room medicine, and cause of death determinations. He testified that
he also works as an emergency room physician and was the only attending physician on
duty when Sergeant Prunty was brought in. Dr. Thoma testified that when Prunty presented,
he was completely unresponsive and had an airway in his trachea. Dr. Thoma stated that it
was necessary to open Sergeant Prunty's chest where it was determined that he had
completely exsanguinated; his heart was empty. To no avail, heroic measures were
performed on Prunty, and he was pronounced dead by Dr. Thoma.

13 of 17

7/27/21, 8:37 AM

L

*

State v. Cope | WestlawNext

https://nextcorrectional.westlaw.com/Document/I391f5518c07811,..

Dr. Thoma was present for part of Sergeant Prunty's autopsy performed by Dr. Long Jin later
that morning. It was then that the physicians discovered that the wounds to Prunty's legs
were inflicted from **25 the back. Dr. Thoma initially believed that Sergeant Prunty suffered
from an injury to the femoral artery that caused massive blood loss.
Ultimately, however, Dr. Thoma concluded that it was the injury to Sergeant Prunty's lower
left leg that caused the bleeding. He testified that the bullet hit the distal femur, shattered his
kneecap, and in the process severed the popliteal artery, an extension of the superficial
femoral artery. He described the injury as a "significant vascular injury’ because the popliteal
artery feeds the lower extremity. Dr. Thoma explained that Sergeant Prunty bled to death,
ultimately from a combination ‘167 of all of the wounds, but primarily from the severed
popliteal artery.
The state questioned Dr. Thoma on the issue of survivability of the wounds that Sergeant
Prunty received. He testified that with these wounds, time is of the essence and that if "he
were shot in an emergency department or in an operating room, possibly that could have
been survivable." He further explained that “if it happens outside of a medical facility,
chances are it’s lethal.' Dr. Thoma also stated that even if a vascular surgeon had been
outside of the convenience store, “without the proper equipment, he probably wouldn't have
been able to stop the bleeding."
On cross-examination by the defense, Dr. Thoma could not say how long it takes for an
individual to bleed out from the severed artery. He agreed that the paramedics indicated that
Sergeant Prunty was near death when they arrived at the scene some five minutes after the
shooting. Dr. Thoma explained that compression (squeezing the artery in an attempt to stop
bleeding) is used to stop an injury like this one. He explained that tourniquets are not used
much. He testified that had compression been "26 applied to Sergeant Prunty's popliteal
artery, "when it first starting happening," compression “would have helped at that point in
time." Dr. Thoma reiterated that if compression had been applied before extremis, “it might
have helped.”
It was at this point in Dr. Thoma's testimony that the State lodged an objection to the
relevancy of this line of questioning because the defense had conceded the cause of death
in opening statements. Further, the state argued that the issue of whether the victim could
have been saved was irrelevant to the defendant's culpability for murder.
Defense counsel argued that the evidence was relevant to the jury’s determination of
specific intent to kill or inflict great bodily harm. The trial court sustained the state's
objection.
Dr. Long Jin also testified as an expert in forensic pathology. On cross-examination by the
defense, Dr. Jin agreed that compression on the popliteal artery would have been a
recommended course of treatment to stop bleeding.
Officer Hodges later testified. On cross-examination, he was asked whether he had received
first responder training at the police academy. He indicated that he had indeed received
training in CPR. The witness was then shown a copy of the First Responder Manual. After
reviewing the book. Hodges testified that it appeared to be a copy of the materials used by
the Shreveport Police Academy that he attended. Hodges was asked no questions about
the manual's content.
Upon completion of the witness's testimony, the defense attempted to introduce the manual
into evidence upon objection to its relevancy. The "27 defense argued that the book
contained information indicating techniques that could have been used to save Sergeant
Prunty's life and that it was therefore relevant to the issue of survivability. Defense counsel
pointed to specific areas of the book dealing with examining the patient from head to toe,
blood loss and control of external bleeding. The trial court sustained the state's objection on
the grounds that the prejudicial nature of the manual outweighed its probative value,
considering that evidence had been elicited from witnesses regarding the measures actually
taken by first responders. The defense proffered the First Responder Manual for purposes
of appeal.
On October 27, 2012, during trial, the state filed an oral motion in limine, seeking to exclude
the expert testimony of Dr. *168 James Lauridson, expert in internal medicine and anatomic
and forensic pathology, on the grounds that his expert testimony would relate to the issue of
survivability. Again the defense argued that the issue of survivability was relevant to proof of

14 of 17

7/27/21, 8:37 AM

State v. Cope | WestlawNext

https://nextcorrectional.westlaw.com/Document/I391f5518c07811...

specific intent to kill or inflict great bodily harm. The defense argued that Dr. Lauridson's
testimony would be that if a first responder would have administered compression behind
the knee to Sergeant Prunty’s popliteal artery, within the first five minutes after the shooting,
then the outcome of the case may have changed. The court deferred ruling on the motion
pending defense counsel's research of the issue but sustained the state's objection two
days later.
The defense sought writs on the issue from this court, which reversed the ruling, specifically
finding that while the expert may not testify directly as to specific intent, “he may testify as to
the survivability of the victim's wounds." (Writ No. 47,985-KW, October 29, 2012).
**28 Thereafter, Dr. Lauridson was allowed to testify. Dr. Lauridson stated that Sergeant
Prunty's popliteal injury would have caused the most blood loss. He explained that the
simplest and most effective treatment for this condition is pressure or compression applied
to the would to close the vessel. In this case, compression would be applied to the back
surface of the left knee. Dr. Lauridson believed that if pressure had been applied between
five and eight minutes after the injury. Sergeant Prunty would not have developed severe
hemorrhagic shock that led to his death. He stated that compression applied within this time
frame “would have greatly increased" the officer's survivability. No special tools were
necessary to apply the pressure.
Dr. Lauridson admitted that pooling of blood in the groin area might have led medical
personnel to think that the upper thigh wound, rather than the wound to the knee, was the
wound that had lacerated an artery and caused the blood loss.
The defense’s final witness was Officer Jimmie Minor. During his testimony, the defense
questioned the officer about his training with the Shreveport Police Academy. He did not
recall that he was supplied with a textbook on first responder practices. The state objected
to the attempt to introduce the First Responder Manual into evidence again. However, in
light of this court's ruling, the trial court allowed the officer to be questioned about his
training. When shown the First Responder Manual, Minor generally recognized the name
and contents of the book. He agreed that a copy of the book would have been provided to
him for study while at the Shreveport Police Academy. Without any further questioning of the
’*29 witness about the book, the First Responder Manual was introduced into evidence.
Ultimately, however, upon objection, the court did not allow the 449-page book to be
published to the jury after concluding that no witness had been questioned with reference to
any specific provision.5 Because the manual was admitted into evidence, however, the
court allowed the defense to refer to four paragraphs during closing arguments.
23 The Sixth Amendment to the United States Constitution guarantees the right of an •
accused in a criminal prosecution *169 "to be confronted with the witnesses against him.”
This right is secured for defendants in state as well as federal criminal proceedings. State v.
Robinson, 01-0273 (La.5/17/02), 817 So.2d 1131. The confrontation clause of our state
constitution specifically and expressly guarantees each accused this right as well. See La.
Const, art. 1, § 16; Robinson, supra.
24 Confrontation means more than being allowed to confront the witnesses physically.
The main and essential purpose of confrontation is to secure for the opponent the
opportunity of cross-examination. Davis v. Alaska, 415 U.S. 308, 94 S.Ct. 1105, 39 L.Ed.2d
347 (1974). Cross-examination is the principal means by which believability and truthfulness
of testimony are tested. Robinson, supra.
25
26 Confrontation errors are subject to a harmless error analysis. See Delaware v.
Van Arsdall, 475 U.S. 673, 106 S.Ct. 1431, 89 L.Ed.2d 674 (1986); Robinson, supra; State
v. Wille, 559 So.2d 1321 (La. 1990). The “30 correct inquiry is whether, assuming that the
damaging potential of the cross-examination were fully realized, a reviewing court might
nonetheless say that the error was harmless beyond a reasonable doubt. Whether such an
error is harmless in a particular case depends upon a host of factors, all readily accessible
to reviewing courts. These factors include the importance of the witness's testimony in the
prosecution's case, whether the testimony was cumulative, the presence or absence of
evidence corroborating or contradicting the testimony of the witness on material points, the
extent of cross-examination otherwise permitted, and, of course, the overall strength of the
prosecution's case.
27

15 of 17

28

Likewise, a criminal defendant has the constitutional right to present a defense.

7/27/21, 8:37 AM

State v. Cope | WestlawNext

https://nextcorrectional.westlaw.com/Document/I391f5518c07811...

U.S. Const, amend. VI; la. Const, art. I, § 16; Washington v. Texas, 388 U.S. 14, 87 S.Ct.
1920, 18 L.Ed.2d 1019 (1967); State v. Van Winkle, 94-0947 (La.6/30/95), 658 So.2d 198.
This right is also subject to a harmless error analysis. Van Winkle, supra.
29

We find no merit to Cope's arguments. After this court's ruling, Cope was allowed to

present unlimited evidence relating to the issue of survivability. He chose to present his
defense through the testimony of Dr. Lauridson, who stated that the use of compression at
the appropriate time may have changed Sergeant Prunty’s outcome. Even so, the record
shows that both Drs. Thoma and Jin offered the same testimony during the state's case. In
fact the defense elicited some of the testimony from both witnesses during crossexamination. Thus, Dr. Lauridson's opinion merely cumulated testimony already received by
the jury. Moreover, the defense was free to recall Dr. Thoma for further questioning on the
issue of survivability but “31 chose not to do so. Considering these circumstances, we find
that Cope was not denied a defense and has demonstrated no prejudice in the court's
earlier limitation of Dr. Thoma's questioning.
30

Likewise, the defense was ultimately allowed to introduce the First Responder Manual

into evidence. It was incumbent upon the defense to question witnesses about the book's
contents or show why specific portions of the document were relevant to the case. During
Hodges' cross-examination, he was only asked about his knowledge of the publication.
When he stated only a general familiarity with the contents of the book, he was asked no
further questions by the defense. Upon the defense's introduction of the manual into
evidence, Hodges was not recalled for cross-examination.
*170 Extensive evidence relating to the actions of the first responders, appropriate treatment
and patient assessment was presented to the jury through medical testimony. The relevant
portions of the manual alluded to by defense counsel in argument would have been nothing
more than cumulative evidence. Thus, Cope has suffered no prejudice in the events relating
to the First Responder Manual.
Conclusion
For the foregoing reasons, Cope's assignments of error are without merit. His conviction
and sentence are affirmed.
AFFIRMED.
All Citations
137 So.3d 151, 48,739 (La.App. 2 Cir. 4/9/14)
Footnotes
1

Notably the car matched the description of a vehicle from which a shot had
been fired at a subdivision security guard about an hour earlier in another part
of town.

2

Cope was also charged with the attempted first degree murder of Sonnier and
the attempted first degree murder of the security guard at the second crime
location. The state severed these counts from the Sergeant Prunty first
degree murder proceedings.

3

4

The rights are set forth in Miranda v. Arizona, 384 U.S. 436, 86 S.Ct. 1602, 16
L.Ed.2d 694 (1966).
Because the officers testified regarding the Shreveport police department use
of distraction strikes during arrest, Cope has shown no prejudice in the denial
of his request to review Shreveport Police Department regulations and
guidelines relating to their use.

5

The court noted that although no witness had been questioned about specific
provisions, defense counsel had placed four note markers in the manual. One
referred to documentation, one referred to a first responder's initial reaction to
and assessment of the scene and patient, and the third addressed three
causes of shock including bleeding and the use of compression. The final note
referenced entry and exit wounds.

16 of 17

7/27/21, 8:37 AM

State v. Cope | WestlawNext

End of

https://nextcorrectional.westlaw.com/Document/I391f5518c07811..

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Document

WestlawNext. © 2021 Thomson Reuters

17 of 17

ii^| THOMSON REUTERS
Thomson Reuters is'-ndt'pmviding legal advice

7/27/21, 8:37 AM

1

>

!

!
i

!
i

APPENDIX “E”
i
*

i

*
i
i

(

•S

ffr

i

CJL

\.

\

. i - ) \*

*. i

*

/

^HjyrrnB
STATE OF LOUISIANA
Jletu ®rltiine

CHIEF JUSTICE
BERNETTE J. JOHNSON

Seventh District

JUSTICES
GREG G. GUIDRY
SCOTT J. CRICHTON
JAMES T. GENOVESE
MARCUS R. CLARK
JEFFERSON D. HUGHES III
JOHN L. WEIMER

First District
Second District
Third District
Fourth District
Fifth District
Sixth Olstilct

JOHN TARLTON OLIVIER
CLERK OF COURT
400 Royal St., Suite 4200
NEW ORLEANS, LA 70130-8102
TELEPHONE (504) 310-2300
HOME PAGE http://www.l8SC.oro

August 4, 2017
Honorable John D. Mosely
Judge, 1“ Judicial District Court
Division G
Caddo Parish Courthouse
501 Texas Street
Shreveport, LA 71101
In Re: State Ex Rel. Christopher Brian Cope
Vs.
State of Louisiana
No. 2016-KH-0481
Dear Judge Mosely:

>

Attached is a copy of an action sheet and per curiam issued by this Court in the above entitled
matter which are self-explanatory.
With kindest regards, I remain,
Very truly yours,
John Tarlton Olivier
Clerk of Court
_

Qm* itfOUMOPS
By: Robin A. Burras
Deputy Clerk of Court
CCS :

All Counsel of Record

Sp^ujrrtxcit ffimrf uf
STATE EX REL. CHRISTOPHER BRIAN COPE

Sumatra
NO.

2016-KH-0481

VS .
STATE OF LOUISIANA

Applying For supervisory
IN RE: Christopher Brian Cope; - Plaintiff;
1st Judicial District Court
and/or “aijrita, Pariah
Seoond C1.rcultf No.
Div. 2,
50746-KH;

August 4, 2017
Denied. See per curiam.
MRC
JLW
GGG
JDH
JTG
CRICHTON, J.,

recused.

Supreme Court of Louisiana
August 4,2017

Mao MVmQ&flAAk
Second Deputy

Cl^rk
For^

f Court
Court

SUPREME COURT OF LOUISIANA

AUG 04 2017

No. 16-KH-0481

STATE EX REL. CHRISTOPHER BRIAN COPE
v.
STATE OF LOUISIANA

ON SUPERVISORY WRITS TO THE FIRST
JUDICIAL DISTRICT COURT, PARISH OF CADDO

ER CURIAM:
Denied. Relator’s claims regarding his confession, pretrial publicity, and the
State v. Cope,
survivability defense are repetitive. La.C.Cr.P. art. 930.4(A); see
48,739 (La. App. 2 Cir. 4/9/14), 137 So.3d 151, writ denied, 14-1008 (La.
12/8/14), 153 So.3d 440
assistance

. In addition, relator fails to show he received ineffective

of counsel under the standard of Strickland v. Washington, 466 U.S.

668, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984). We attach hereto and make a part
hereof the district court’s written reasons denying relief.
Relator has now fully litigated his application for post-conviction relief in
see 28 U.S.C. § 2244, Louisiana poststate court. Similar to federal habeas relief,
conviction procedure envisions the filing of a second or successive application
only under the narrow

circumstances provided in La.C.Cr.P. art. 930.4 and within

the limitations period as set out in La.C.Cr.P . art. 930.8. Notably, the Legislature in
2013 La.

Acts 251 amended that article to make the procedural bars against

successive filings mandatory
accord with La.C.Cr.P

Relator’s claims have now been fully litigated in

art. 930.6, and this denial is final. Hereafter, unless he can

show that one of the narrow

exceptions authorizing the filing of a successive

"yA C.3". ^.5.

application applies, relator has exhausted his rig

state collateral review. The

district court is ordered to record a minute entry consistent with this per curiam

2

APPENDIX “F”

*

l

'\r t

i
<►.

4s.

«.

>

■

. i

A !

i '

1

J

I.
?

i

;
i

i

i
V

APPENDIX “G”

*
1
t

i
i

i

\

1

Cr rx

I)

l

\
' V
4

1

i'.ikl

♦
i -5

^
1

1 '

m

QjL* /4-fi

s
&

9

3
s/

NUMBER: 291,674-2

STATE OF LOUISIANA

?y& Ai

VERSUS

SiMjudicial district court
O PARISH, LOUISIANA

9,

CHRISTOPHER COP:

I. 0£PgTV
The subject of this Opinion is Petitioner’s Application for Post-Conviction Relief filed

£
ro

October 12,2015. For the foregoing reasons, Petitioner’s Application is DENIED.

W
JO

On or about October 30, 2012, the Petitioner, present with counsel, Bruce Whittaker, was g
found guilty as

charged of First Degree Murder and waived sentencing delays. Whereupon, the w

Petitioner was sentenced to

life imprisonment at hard labor and committed to the Louisiana >
Q

Department of Coitions, subject to the conditions provided by law. The court ordered said |
ce to be served without the benefit of probation, parole or suspension of sentence and with |
senten
credit for time served. The court informed .he Petitioner of his right to appeal and post-eonvietion o
NJ

relief proceedings as per Boykin v.
affirmed on

Alabama. The Petitioner’s conviction and sentence were

appeal, and the Louisiana Supreme Court denied writs. Stale v. Cope, 48,739 (U.

App. 2d Clr. 4/09/14), 137 So. 3d 151, writ dented, 2014-1008 (La. 12/8/14), 153 So. 3d 440.
The Petitioner first raises two claims and argues the trial court erred in denying his motions
to suppress the confession and motion for change of venue. As stated in the Assistant District
Attorney’s Procedural Objection

to the Petitioner’s Application for Post-Conviction Relief, “both

issues were raised and fully litigated in the Petitioner’s appeal.” Slate v. Cope, 48,739 (La. App.
2dCir. 4/09/14), 137 So. 3d 151, writ denied, 2014-1008 (La-12/8/14), 153 So. 3d 440.
Secondly, in his

application for post-conviction relief, Petitioner alleges ineffective

ineffective assistance of counsel claim, Petitioner must
assistance of counsel. To succeed on an
first satisfy the

test set forth by the United States Supreme Court in Strickland v. BtaMrrg/orr, 466

U.S. 668 (1984).

Petitioner must show that counsel’s performance was deficient, that the

deficiency prejudiced him, and that counsel ’s error

was so serious that it violated Petitioner’s right

effective assistance of counsel as guaranteed by the Sixth Amendment of the U.S. Constitution.
Id at 686. The

Petitioner must prove actual prejudice before relief will be granted. It is not

sufficient for the Petitioner to showthe error
proceedings. Rather, he must show

had some conceivable effect on the outcome of the

that but for counsel’s unprofessional errors, there is a

reasonable probability the outcome would have been different. Id. at 693. The performance and
conduct of the defense attorney must be evaluated from that counsel’s perspective at the time of

j

I
1

the occurrence. Petitioner has not met his burden under Strickland of showing a different outcome.
He merely makes unsupported allegations of ineffective assistance of counsel; Petitioner has not
met his burden of proof pursuant to Louisiana Code of Criminal Procedure article 930J2.
Additionally, in accordance with La. Code of Criminal Procedure Article 930.4, where an
application for post-conviction relief alleges a claim of which the petitioner had knowledge and
inexcusably failed to raise in the proceedings leading to conviction, the court may deny relief. The
limitations on prosecution alleged by the Petitioner should have been acknowledged in
proceedings leading to conviction. Petitioner should include reasons why this claim was not
presented at trial or on appeal.

£
CD

£
co
n

>

For the foregoing reasons, Petitioner’s Application for Post-Conviction Relief filed

z
©

o

October 12,2015 is DENIED.

©

The Clerk of Court is directed to provide Petitioner, his custodian and the District Attorney ®
©
I-*-

with a copy of this opinion.

w

.,2015.

OPINION RENDERED, READ AND SIGNED, this

A

ja

WSKNMSSi
DISTRJCT JUDGE

r

SERVICE INFORMATION;
Christopher Cope, DOC #604579
Louisiana State Prison
Angola, La. 70712-9999

Caddo Parish District Attorney
503 Texas St., 5* Floor
Shreveport, LA 71101

